<html>
<title> - AN ADMINISTRATION MADE DISASTER: THE SOUTH TEXAS BORDER SURGE OF UNACCOMPANIED ALIEN MINORS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    AN ADMINISTRATION MADE DISASTER:
                    THE SOUTH TEXAS BORDER SURGE OF
                       UNACCOMPANIED ALIEN MINORS

=======================================================================


                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2014

                               __________

                           Serial No. 113-84

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
88-437                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel


                            C O N T E N T S

                              ----------                              

                             JUNE 25, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     4
The Honorable Jason Chaffetz, a Representative in Congress from 
  the State of Utah, and Member, Committee on the Judiciary......     5
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Member, Committee on the Judiciary....     7

                               WITNESSES

Thomas Homan, Executive Associate Director, Enforcement and 
  Removal Operations, U.S. Immigration and Customs Enforcement
  Oral Testimony.................................................    10
Ronald D. Vitiello, Deputy Chief of Border Patrol, Customs and 
  Border Protection, U.S. Department of Homeland Security
  Oral Testimony.................................................    12
  Joint Prepared Statement.......................................    14
Chris Crane, President, National Immigration and Customs 
  Enforcement Council 118, American Federation of Government 
  Employees
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Brandon Judd, President, American Federation of Government 
  Employees National Border Patrol Council
  Oral Testimony.................................................    32
  Prepared Statement.............................................    35
Most Reverend Mark Seitz, Bishop, Diocese of El Paso, Texas
  Oral Testimony.................................................    38
  Prepared Statement.............................................    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Bob Goodlatte, a 
  Representative in Congress from the State of Virginia, and 
  Chairman, Committee on the Judiciary...........................    57
Material submitted by the Honorable Darrell E. Issa, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................    72
Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Member, Committee 
  on the Judiciary...............................................    74
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   115
Material submitted by the Honorable Louie Gohmert, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   135
Material submitted by the Honorable Steve King, a Representative 
  in Congress from the State of Iowa, and Member, Committee on 
  the Judiciary..................................................   151
Additional material submitted by the Honorable Steve King, a 
  Representative in Congress from the State of Iowa, and Member, 
  Committee on the Judiciary.....................................   156
Additional material submitted by the Honorable Zoe Lofgren, a 
  Representative in Congress from the State of California, and 
  Member, Committee on the Judiciary.............................   169
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   211
Material submitted by the Honorable Luis V. Gutierrez, a 
  Representative in Congress from the State of Illinois, and 
  Member, Committee on the Judiciary.............................   214
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................   233

                                APPENDIX
               Material Submitted for the Hearing Record

Questions for the Record submitted to Thomas Homan, Executive 
  Associate Director, Enforcement and Removal Operations, U.S. 
  Immigration and Customs Enforcement............................   242
Response to Questions for the Record from Ronald D. Vitiello, 
  Deputy Chief of Border Patrol, Customs and Border Protection, 
  U.S. Department of Homeland Security...........................   244
Response to Questions for the Record from Chris Crane, President, 
  National Immigration and Customs Enforcement Council 118, 
  American Federation of Government Employees....................   246


                    AN ADMINISTRATION MADE DISASTER:

                    THE SOUTH TEXAS BORDER SURGE OF
                       UNACCOMPANIED ALIEN MINORS

                              ----------                              


                        WEDNESDAY, JUNE 25, 2014

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 2:09 p.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Coble, Smith of Texas, 
Chabot, Bachus, Issa, Forbes, King, Franks, Gohmert, Jordan, 
Poe, Chaffetz, Marino, Gowdy, Labrador, Farenthold, Holding, 
Collins, DeSantis, Conyers, Nadler, Scott, Lofgren, Jackson 
Lee, Johnson, Chu, Deutch, Gutierrez, Bass, DelBene, Garcia, 
Jeffries, and Cicilline.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Dimple Shah, Counsel; George Fishman, Counsel; Kelsey 
Deterding, Clerk; (Minority) Perry Apelbaum, Minority Staff 
Director & Chief Counsel; Danielle Brown, Parliamentarian; and 
Tom Jawetz, Counsel.
    Mr. Goodlatte. Good afternoon. The Judiciary Committee will 
come to order. And without objection, the Chair is authorized 
to declare recesses of the Committee at any time.
    We welcome everyone to this afternoon's hearing on ``An 
Administration Made Disaster: The South Texas Border Surge of 
Unaccompanied Alien Minors.'' And I will begin by recognizing 
myself for an opening statement.
    There is a tsunami hitting our Nation's southern border. 
Unaccompanied alien minors and adults traveling with minors are 
arriving in unprecedented numbers. Central American minors, 
largely teenagers, are making a perilous journey through Mexico 
and then walking miles across a hostile border environment, 
assisted by smugglers, and coming to the United States in 
violation of the law.
    According to Deputy Border Patrol Chief Ronald Vitiello, 
who will testify today, the Department of Homeland Security 
expects to apprehend more than 90,000 unaccompanied minors on 
the border this year. The estimated number of UAMs apprehended 
in 2014 represents a 1,381 percent increase since 2011, while 
the projected number of 142,000 apprehensions in 2015 
represents a 2,232 percent increase.
    It is not just UAMs who are arriving; adults bringing along 
minors are also coming. Since 2011, the number of apprehended 
individuals comprising family units has increased from 13,600 
to 42,000 for this year as of June 16. Taking into account just 
half of this year, we have seen a 143 percent increase in 
families apprehended at the border since 2012.
    The Administration claims that these unlawful aliens are 
coming to the U.S. based upon generalized violence, strife, 
conflict, and discord in their home countries. It is true that 
these factors have always played a role in Central Americans 
coming to the U.S. illegally.
    Undoubtedly, seeing strife in economically disadvantaged 
countries, along with seeing impoverished women and children 
showing up at our Nation's doorstep, arouses the deepest of 
sympathies. However, the factors causing the recent and 
unprecedented surge are very different than those claimed by 
the Administration.
    A May 28, 2014, Rio Grande Valley Sector Intelligence 
Report tells a story that is strikingly different than the 
claimed humanitarian crisis the Administration paints as 
responsible for the surge. The report summarized interviews 
conducted with hundreds of apprehended Central American minors 
and, quite frankly, paints a very different picture of the 
situation. According to the report, when these individuals were 
asked why they made the journey to the United States, 
approximately 95 percent indicated that the main reason was to 
take advantage of the new U.S. law that grants a free pass or 
permit, referred to as ``permisos,'' being issued by the U.S. 
Government to women traveling with minors and unaccompanied 
alien minors.
    While no new law has been enacted, the truth is that this 
Administration has dramatically altered immigration enforcement 
policies. The timing of the change in policies correlates 
closely with the steep uptick of individuals showing up at the 
border. Apparently, word has gotten out that once encountered 
by Border Patrol agents and processed, thanks to this 
Administration's lax enforcement policies, one will likely 
never be removed.
    Word has spread to the Americas and beyond that the Obama 
administration has taken unprecedented and most likely 
unconstitutional steps in order to shut down the enforcement of 
our immigration laws for millions of unlawful and criminal 
aliens not considered high enough priorities, especially minors 
and adults with minors. The world seems to know that DHS 
refuses to enforce the law under the guise of prosecutorial 
discretion. The beneficiaries of these policies even include 
many thousands of aliens who have been arrested by State and 
local law enforcement or convicted criminals who have been put 
in removal proceedings and who DHS has simply let back out onto 
our streets.
    And now these beneficiaries include those minors and 
families who continue to arrive at our border and the 
Administration ushers in via ``100 percent reverse escorts''--
that's a term--into the interior of the United States. Most are 
ultimately released, often into the hands of those who paid 
smugglers to bring them here in the first place.
    In addition to simply not pursuing removable aliens, DHS 
has been granting hundreds of thousands of these individuals 
administrative legalization and work authorization. DHS does 
this under many guises, invoking doctrines with esoteric names 
such as ``deferred action'' and ``parole in place.'' The net 
effect of these policies has been described by former ICE 
Acting Director John Sandweg, ``If you are a run-of-the-mill 
immigrant here illegally, your odds of getting deported are 
close to zero.'' Apparently those arriving at our borders now 
know this.
    Indeed, Father Heyman Vasquez, the director of a migrant 
shelter in Mexico, told news outlets that children and families 
are encouraged to cross into the U.S. illegally because they 
think they will be given amnesty. Vasquez said, ``I remember a 
little boy of 9 years old, and I asked if he was going to go 
meet someone, and he told me, 'No, I'm just going to hand 
myself over because I hear they help kids.' ''
    In addition, like so many others across Central America, 
Robin Tulio, a 13 year old, said his mother believed that the 
Obama administration had quietly changed its policy regarding 
unaccompanied minors, and that if he made it across he would 
have a better shot at staying.
    In the meantime, Central American media touts an open door 
to the U.S. for minors and families. Based on information the 
Committee has received, it seems that the Administration has 
known about this problem for some time. Reverend Richard 
Ryscavage, who serves on the White House immigration advisory 
panel, agrees.
    He stated that ``Officials hid the fast-growing migration 
crisis from the media because they're still trying to pass a 
very unpopular immigration rewrite.'' He indicated, ``That's 
the Administration's priority, to get that Senate-type bill 
passed. They didn't do anything public about it. They didn't 
want to tell anyone about it. And now they're in a stage where 
they're feeling we have to figure out a strategy.'' Ryscavage 
concludes: ``That's what the Administration is most afraid of, 
that the border surge will derail any discussion of reform of 
the immigration laws.''
    Unfortunately, these statements show that the 
Administration has made a fundamental miscalculation. Its 
failure to secure our borders, mitigate threats to national 
security, or enforce our immigration laws only undermines 
Congress' ability to reform our immigration laws.
    It was easy to predict that people in South and Central 
America, as well as in Mexico, would recognize a veiled 
invitation from the Administration to send their children and 
families to the United States with little chance of 
deportation. These individuals know that the Administration's 
policy of nonenforcement of our immigration laws presents a 
golden opportunity for unaccompanied minors and families with 
minors to come to the U.S., most likely to be released with 
very little chance of ever being removed. The Administration's 
message is tragic because the journey the Administration 
encourages is so dangerous and results in death, disease, and 
harm to so many minors along the way.
    It is often said that Nero fiddled while Rome burned. 
Unfortunately, it seems that Obama fiddles while our borders 
implode. I look forward to finding out from the witnesses today 
what, if anything, the Obama administration plans to do about 
this crisis and what solutions could work to end it. I would 
like to thank all of the witnesses, many of whom are career law 
enforcement professionals, for taking the time to testify.
    And now I would like to recognize the Ranking Member of the 
Committee, the gentleman from Michigan, Mr. Conyers, for his 
opening statement.
    Mr. Conyers. I had hoped that we could have a balanced 
discussion about the root causes of the humanitarian crisis 
we're seeing play out along the southwest border and also begin 
to identify solutions to this pressing issue. I now see that 
some have already made their conclusions before even hearing 
the facts. I am very, very disappointed about the conclusions 
and surmises that have been made in the opening statement.
    And the title of this hearing seems to say it all: ``An 
Administration Made Disaster: The South Texas Border Surge of 
Unaccompanied Alien Minors.'' I couldn't more strongly disagree 
with a misleading title such as this and supplanted by the 
arguments just presented. My concern is not just that this 
title unfairly attacks the President of the United States or 
that it presupposes a conclusion without substantial evidence, 
but that it also dangerously mischaracterizes the issue at 
hand.
    The increase in unaccompanied children apprehended along 
our southwest border in recent years is evidence of a 
humanitarian crisis unfolding in our region. The facts simply 
do not support the claim that this Administration's actions 
have somehow led to the current situation. The dramatic flow of 
children across our southwest borders is a symptom of the real 
humanitarian crisis that's going on every day in Honduras, El 
Salvador and Guatemala, where most of these children come from. 
And in each of these countries, the level of violence is sky 
high and the ability of the government to protect its most 
vulnerable citizens is terribly low.
    Honduras has the highest murder rate in the world and has 
had it for the last 4 years. El Salvador and Guatemala are 
close behind at fourth and fifth. Our State Department even 
warns American citizens not to travel to Honduras and El 
Salvador because the level of crime and violence is critically 
high, and as a result many people are fleeing to ask for 
protection abroad.
    It's important to note that they're not just heading to the 
United States. Since 2008, Mexico, Nicaragua, Belize, Panama, 
and Costa Rica have seen a 712 percent increase in asylum 
claims from these three countries alone. The number of children 
we are seeing is sure to test our resolve with respect to the 
rule of law and our obligation to protect people fleeing 
persecution, and this is a test that we must not fail.
    I can't help but think of how we responded when tens of 
thousands of Haitians took to the seas in small boats and 
dangerous conditions after the coup that ousted President Jean-
Bertrand Aristide. Coast Guard vessels interdicted many of 
these boats and returned people to face persecution without a 
fair asylum hearing. Let's not repeat the mistakes of the past. 
Although the current situation poses a great challenge to our 
Departments of Homeland Security, Health and Human Services, 
and Justice, we must rise to meet the challenge and demonstrate 
our continuing commitment to the rule of law and the protection 
of refugees.
    Let us also not forget the urgent issue in the background: 
We need to fix our broken immigration system. It has now been a 
year since the Senate passed bipartisan comprehensive 
immigration reform that would bring much-needed relief to 
American families, businesses and communities.
    And with that, I want to just conclude by pointing out, in 
the 12 months since the Senate passed a bill, a House version, 
H.R. 15, has gained the support of 200 cosponsors. The 
Congressional Budget Office has reported that these bills would 
jump-start our economy and decrease the deficit by $900 billion 
over 20 years. And public sentiment remains decidedly in favor 
of comprehensive reform.
    But here at the end of June and another work period, we 
have done nothing to achieve needed reform. So what are we 
waiting for? I'm ready to take a vote now. And if that 
happened, I'm willing to bet that a majority of Members of the 
House of Representatives would vote right along with me. But 
leadership in the House still blames their inaction on the 
President, saying that he can't be trusted.
    The need to fix our broken immigration system, thousands of 
children flooding across our border, a humanitarian crisis 
right in our backyard, these are difficult issues that cannot 
be explained, let alone solved, by these simplistic accusations 
and recycling of political sound bites. I am very discouraged, 
but I will not stop. Now is the time to lay down our 
legislative armor, end the political theatrics and do something 
simply because it is the right thing to do. And of course, if 
the House fails to act, I fully support the President doing 
what he can under current law to improve our broken system. 
Either way, America is waiting. And I conclude my remarks on 
that note.
    Mr. Goodlatte. The Chair thanks the gentleman.
    And I will now turn to the Chairman of the Subcommittee on 
Immigration and Border Security, the gentleman from South 
Carolina, Mr. Gowdy, for his opening statement.
    Mr. Gowdy. Thank you, Mr. Chairman. It is my pleasure to 
yield to the Chairman of the National Security Subcommittee on 
Oversight and Government Reform, who has done great work on 
this issue, as well as Mr. Chairman, fraud and the asylum 
process, the gentleman from Utah, Mr. Chaffetz.
    Mr. Chaffetz. I thank the Chairman.
    From the onset, the Obama administration has made it clear 
that certain broad classes of unlawful aliens would not be 
deported if caught within the interior of the United States. 
This helped create an atmosphere conducive to the current rash 
of thousands of minors, some coming with family members but 
many unaccompanied, entering from the south of the border into 
the United States.
    In order to deal with this problem, the Obama 
administration announced a few weeks ago that United States 
Immigration and Customs Enforcement, ICE, will expand the 
number of family detention beds and send trial attorneys and 
immigration judges to the border to address the sudden surge of 
children, teenagers, and families seeking to enter the United 
States illegally.
    Unfortunately, the Administration's plan to deal with the 
crisis at the border created by its failure to enforce our 
immigration laws really will do little to solve the problem it 
itself created. Many of the children, teenagers, and adults 
arriving at the border are able to game the system, our asylum 
and Administration laws because the Obama administration has 
severely weakened them. All the Administration plans to deal 
with the problem will only ensure that the claims will get 
adjudicated more quickly, and minors and adults with minors 
will be put on the fast track to remaining in the United States 
permanently and legally and with access to a full array of 
taxpayer-provided benefits.
    Unaccompanied alien minors are not subject to expedited 
removal under current law, and many, if not a majority of them 
are eligible for immigration relief. Many of the minors and 
families arriving at the border are claiming asylum or a 
credible fear of persecution. These minors can apply for and 
will likely receive asylum because it's just as easy to game 
the system.
    The Committee obtained an internal Department of Homeland 
Security report which shows at least 70 percent of asylum cases 
contain proven or possible fraud. In addition, approval rates 
of asylum applications are skyrocketing, and former members of 
violent gangs who supposedly renounce their memberships once 
encountered by immigration authorities are getting asylum.
    Lastly, nondetained aliens who are denied asylum are rarely 
successfully deported. A minor who wants to make an affirmative 
claim of asylum will first apply with a USCIS asylum officer. 
Approval rates by asylum officers have increased from 28 
percent in 2007 to 46 percent in 2013. If an asylum officer 
does not approve the application, it is referred to an 
immigration judge. Approval rates by immigration judges in 
affirmative cases have increased from 51 percent in 2007 to 74 
percent in 2013.
    Combining these two bites at the apple, the vast majority 
of aliens who affirmatively seek asylum are now successful in 
their claims. This is not even to take into account the appeals 
to the Board of Immigration Appeals or Federal courts. 
Furthermore, family units caught along the border or at ports 
of entry can claim a credible fear of persecution in order to 
seek a hearing before an immigration judge and receive work 
authorization while their case is pending.
    Over the past several years, credible fear claims have been 
granted at ever-growing rates under the Obama administration. 
Currently, data provided by the Department of Homeland Security 
shows that U.S. Citizenship and Immigration Services, USCIS, 
makes positive credible fear findings in 92 percent of all 
cases. In fact, credible fear claims have increased 586 percent 
from the year 2007 to 2013, as word has gotten out of the 
virtual rubber stamping of the applications.
    This is more troubling because we have received reports 
that drug cartel members are abusing the asylum process to 
bypass regular immigration checks in order to get into the 
country. Thereafter, they expand their human and drug smuggling 
operations in the United States. Once here, some of these 
cartel members even engage in the same violent feuds that 
caused them to flee Mexico and other South and Central American 
countries in the first place.
    Information provided by DHS also details cartel hit squad 
members who entered the United States after claiming they 
feared violence when they fell out of grace with their 
``employers.'' In one case, two families involved in drug 
trafficking came to the United States claiming credible fear of 
persecution then began targeting each other once they were 
here.
    It's outrageous that dangerous criminals are gaming the 
system by claiming they have credible fear of persecution, when 
often they have been the perpetrators of violence themselves. 
If the Administration really wants to fix the problem, they 
should enforce our immigration laws already on the books, 
reverse policies that created this mess in the first place, and 
work with Congress on targeted legislative fixes.
    I thank the Chairman, and I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and now 
recognizes the Ranking Member of the Subcommittee on 
Immigration and Border Security, the gentlewoman from 
California, Ms. Lofgren, for her opening statement.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Today's hearing is on a serious topic and it deserves a 
serious discussion. Unfortunately, as Mr. Conyers has said, the 
title, ``An Administration Made Disaster,'' looks like some 
have made up their minds and may indeed intend to turn this 
into yet another partisan attack on the Administration. The 
facts don't support that attack, and I hope we will be able to 
give this topic the consideration it deserves.
    There is indeed a spike in the number of unaccompanied 
minor children apprehended along the southwest border. Although 
the increase actually began in 2011, the rate of apprehension 
has increased sharply. We may apprehend as many as 90,000 kids 
during the current fiscal year, and they have overwhelmed our 
resources to cope with them.
    Now, in the past, the majority of kids coming alone came 
from Mexico, and they tended to be older children, 16-, 17-
year-old boys. That is no longer the case. The current spike is 
driven almost entirely by children from three countries, and we 
have a chart here, and you can see it starkly laid out.
    [Chart.]
    Ms. Lofgren. The sources of these children coming to the 
United States are El Salvador, Guatemala, and Honduras. And the 
current population has changed, as well. We don't have that on 
the chart. It contains lots more girls, lots more younger 
children than have come in the past.
    And has been pointed out, and I think all of us will agree, 
the journey to the United States is extremely dangerous, and 
along the way these children could be raped, they could be 
killed, maimed, become victims of trafficking, extorted. Many 
of them know the dangers that they'll face. So we need to 
understand what it is, knowing what they face that is causing 
them to come anyway. What is so horrible that is going on in 
those countries that you would face potentially being 
trafficked or raped in order to get here?
    Now, the UNHCR, the U.N. refugee agency, has taken a look 
at what's going on in these three countries, and they report a 
spike in violence by transnational criminal organizations. In 
fact, news reports indicate that officials in El Salvador 
recently discovered a mass grave containing the remains of 
people, including children, who were killed and dismembered 
elsewhere.
    In Honduras, the Covenant House reports that murders of 
children are on the rise. And according to the State 
Department's 2013 country report on Guatemala, many hundreds of 
women and girls are killed each year. The report notes, and I 
quote, that in most killings, sexual assault, torture and 
mutilation were evident, but only 1 or 2 percent of these 
murders resulted in conviction.
    Now, this is a regional catastrophe, and the United States 
is not the only country experiencing an increase in the number 
of young people fleeing from these countries seeking 
protection. As Mr. Conyers, mentioned, there's been a 712 
percent increase in asylum applications in Mexico, Costa Rica, 
Nicaragua, Panama, and Belize.
    It's significant that there is no measurable increase of 
any sort from children coming from these other countries. Look 
at Nicaragua. There's no spike there. Nicaragua actually is a 
country that is poorer than Honduras, Guatemala, and El 
Salvador. There is no spike from these other countries.
    So if the majority is correct that there's somehow a change 
in policy, which there has not been, that has encouraged people 
to come to the United States, why only from three countries? 
Why not from the poor country of Nicaragua?
    I think also that the UNHCR, which is probably the most 
experienced in dealing with refugee matters, interviewed 404 of 
these unaccompanied children and they found out that 58 percent 
of them spoke of serious harm that raised for the U.N. 
international protection concerns. I remember last year we had 
a hearing on so-called asylum abuse and Chairman Goodlatte 
asked whether there really had been a situation where things 
had gotten more dangerous in recent years. And I think it's 
obvious when it comes to Honduras, El Salvador, and Guatemala, 
the answer to that question appears to be yes.
    Unfortunately, some have tried to politicize the situation. 
Some have argued the Administration is responsible for this 
humanitarian crisis, and indeed, the title of this hearing is 
conclusionary in that respect. Put aside the fact that the 
Obama administration has set records in terms of deportations, 
I think we need to know that nothing has changed in terms of 
the law.
    Looking back at the state of the law, the 1997 court-
ordered settlement Flores v. Reno first established that 
children should be released into the least restrictive 
environment, because at the time little children were being 
housed in prisons with adults, and we found that and the courts 
found that unconstitutional and wrong.
    Subsequent to that, our former colleague, Dick Armey of 
Texas, introduced the Homeland Security Act of 2002, which 
codified the court settlement and said that unaccompanied 
children must be released into the least restrictive 
environment, and of course, the William Willberforce 
Trafficking Victims Protection Reauthorization Act that we all 
championed here, cosponsored by Mr. Berman, our former 
colleague, and Jeff Fortenberry, Chris Smith, and Ileana Ros-
Lehtinen, also signed into law by George Bush, further codified 
that settlement, that we're not going to put little children 
into shackles.
    Now, it's true that the government is not now using 
expedited removal to deport these children without an 
immigration hearing. Why is that? Because the law prohibits it. 
They are following what the law says that they must do, and 
this was the law signed into law when George Bush was President 
in a Republican Congress.
    You know, the regional humanitarian crisis requires a 
regional solution, and I'm hopeful that some of the steps 
announced last week to encourage, even demand the governments 
of Guatemala, El Salvador, and Honduras to take action to 
prevent the violence against these children will have an 
effect.
    I'm also going to be looking closely at how we detain 
families. The Chairman is correct, we also have a surge of 
families with young children, and we are, as we know, opening 
up additional facilities for those families to be housed. As 
the Chairman, I'm sure, will recall, in the Refugee Act of 
1980, as well as the Illegal Immigration Reform and 
Responsibility Act of 1996, authored by Congressman Smith of 
Texas, it is required that each case be reviewed closely and on 
a case-by-case basis and that no person or child be returned to 
face persecution or torture abroad.
    This humanitarian crisis poses an enormous challenge. It 
will not help us to face this challenge by suggesting that when 
we follow the law we are somehow making up a new policy; in 
fact, we are following the policies that have guided us in 
treating children since 1997. And I hope that we will not play 
partisan games with this very dangerous situation. I yield 
back.
    Mr. Goodlatte. The time of the gentlewoman has expired.
    Without objection, all other opening statements will be 
made a part of the record.
    We welcome our distinguished panel today. And if you would 
all rise, I'll begin by swearing in the witnesses.
    [Witnesses sworn.]
    Mr. Goodlatte. Let the record reflect that all of the 
witnesses responded in the affirmative.
    I'll begin by introducing the witnesses. Mr. Thomas Homan 
is the Executive Associate Director for Enforcement and Removal 
Operations for U.S. Immigration and Customs Enforcement in the 
Department of Homeland Security. In this role, Mr. Homan has 
direct oversight of critical ICE programs and operations to 
identify, arrest, detain, and remove illegal aliens from the 
United States. Mr. Homan is a 30-year veteran of law 
enforcement and has 27 years of immigration enforcement 
experience. With a bachelor's degree in criminal justice, he 
began his career as a police officer in New York.
    Mr. Ronald Vitiello is the Deputy Chief of the U.S. Border 
Patrol. As the Border Patrol's chief operating officer, he is 
responsible for the daily operations of the Border Patrol and 
routinely reports to and assists the Chief, U.S. Border Patrol, 
in planning and directing nationwide enforcement at 
administrative operations. Deputy Chief Vitiello entered the 
Border Patrol in 1985 at the Laredo Station in the Laredo 
Sector where he also served as a supervisory Border Patrol 
agent and has been with Border Patrol since.
    Mr. Chris Crane currently serves as the President of the 
National Immigration and Customs Enforcement Council 118, 
American Federation of Government Employees. He has worked as 
an immigration enforcement agent for the U.S. Immigration and 
Customs Enforcement at the U.S. Department of Homeland Security 
since 2003. Prior to his service at ICE, Chris served for 11 
years in the United States Marine Corps.
    Mr. Brandon Judd is a Border Patrol agent and serves as 
President of the National Border Patrol Council, representing 
more than 17,000 Border Patrol agents and support staff. 
Beginning in 1997, Mr. Judd brings with him more than 17 years 
of experience as a Border Patrol agent. He was first elected 
president of the Border Patrol local in El Centro, California 
in 2001, and was later elected president of the largest Border 
Patrol local in Tucson, Arizona, in 2010, where he served a 2-
year term. Mr. Judd is currently a Border Patrol agent 
stationed in Van Buren, Maine.
    The Most Reverend Mark J. Seitz was named the sixth bishop 
of El Paso by His Holiness Pope Francis in 2013. Bishop Seitz 
began his priestly formation in 1972 at Holy Trinity Seminary 
in Irving, Texas, and was ordained to the priesthood for the 
Diocese of Dallas on May 17, 1980. He holds a bachelor of arts 
degree in philosophy, a master's degree in divinity, and a 
master of arts degree in theology from the University of 
Dallas. In 1985, Bishop Seitz received a master's degree in 
liturgical studies from Saint John's University in 
Collegeville, Minnesota.
    We welcome all of you. I ask that each witness summarize 
his testimony in 5 minutes or less. To help you stay within 
that time, there's a timing light on your table. When the light 
switches from green to yellow, you have 1 minute to conclude 
your testimony. When the light turns red, that's it, your time 
is up. And we welcome you again.
    And we'll start with you, Mr. Homan. We're glad to have you 
with us.

     TESTIMONY OF TOM HOMAN, EXECUTIVE ASSOCIATE DIRECTOR, 
   ENFORCEMENT AND REMOVAL OPERATIONS, U.S. IMMIGRATION AND 
                      CUSTOMS ENFORCEMENT

    Mr. Homan. Good afternoon. Chairman Goodlatte, Ranking 
Member Conyers, and Members of the Committee, thank you for the 
opportunity to testify today about U.S. Immigration and Customs 
Enforcement's role in addressing the influx of unaccompanied 
children along our Nation's southwest border, namely the Rio 
Grande Valley. Through the whole of government, we are 
determined to address this situation in a manner that is 
comprehensive, coordinated, and humane.
    On May 12, Secretary Johnson declared a Level IV condition 
of readiness, which was the first step to bring the full 
interagency resources to bear. On June 1, President Obama, 
pursuant to the Homeland Security Act, directed Secretary 
Johnson to establish a Unified Coordination Group to ensure 
maximum coordination and effort were engaged. This group 
includes DHS and all of its components, the Departments of 
Health and Human Services, Defense, Justice and State, and the 
General Services Administration. Secretary Johnson has 
designated Federal Emergency Management Agency Administrator 
Craig Fugate to serve as the Federal coordinating official for 
this U.S. Government-wide effort.
    When CBP encounters a child attempting to enter the United 
States, CBP begins the interview process to determine the 
child's status, review available documentation, and determine 
if the child is accompanied by a parent or legal guardian. 
Under the Trafficking Victims Protection Reauthorization Act of 
2008, we refer to it as TVPRA, an unaccompanied child who is a 
national of Canada or Mexico may be permitted to withdraw his 
or her application for admission and be repatriated 
immediately. However, this is not true for the vast majority of 
children encountered in the Rio Grande Valley because almost 
all of them are nationals of Honduras, Guatemala, and El 
Salvador, and according to the TVPRA are required to be 
processed by a notice to appear in order to see an immigration 
judge.
    Upon determining that an unaccompanied child does not have 
the option under TVPRA to withdraw his or her application for 
admission, CBP notifies ICE and the Department of Health and 
Human Services Office of Refugee Resettlement. Once HHS 
notifies CBP and ICE that a shelter bed is available, pursuant 
to the requirements of the law, it is ICE's legal 
responsibility to quickly and safely transport the 
unaccompanied child from CBP custody to an ORR shelter 
facility.
    ICE transports unaccompanied children via ground, 
commercial air, and ICE charter flights. In order to speed up 
the safe transportation of unaccompanied minors to ORR 
shelters, ICE has leased additional aircraft planes and is 
closely working with the Houston airport authority to have ICE 
escorting officers fly to Houston rather than making the trip 
to the Rio Grande Valley where both inbound and outbound 
flights are limited.
    ICE is also using reverse escorting for unaccompanied 
children. ICE enforcement removal operations officers from 
other parts of the country are assisting and supporting the 
transportation needs in the Rio Grande Valley. This allows for 
more escorting capabilities, prevents officers in the Rio 
Grande Valley from breaking the overtime salary cap, and offers 
some relief to those officers in the RGV that are working at an 
incredible pace.
    All 24 ICE ERO field offices have primary and backup 
juvenile coordinators, each of whom receive annual specialized 
training with respect to the unique vulnerabilities of 
children. Finally, ICE has detailed more than 91 officers to 
the Rio Grande Valley to assist with the increased 
transportation needs.
    In conclusion, with the Committee's support ICE continues 
to work closely to ensure we have the resources we need to 
address the situation. Together with the Unified Coordination 
Group, ICE is leveraging all available transportation 
capabilities and resources to accommodate the needs of these 
children.
    Chairman Goodlatte, Ranking Member Conyers, and 
distinguished Members of the Committee, I thank you for this 
opportunity to testify about ICE's role in managing the arrival 
of unaccompanied children. I look forward to answering your 
questions. Thank you.
                              ----------                              


    Mr. Goodlatte. Thank you, Mr. Homan.
    Mr. Vitiello, welcome.

TESTIMONY OF RONALD D. VITIELLO, DEPUTY CHIEF OF BORDER PATROL, 
  CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Vitiello. Thank you, Chairman Goodlatte, Ranking Member 
Conyers, and distinguished Members of the Committee. Thank you 
for the opportunity to appear today to discuss the role of U.S. 
Customs and Border Protection in addressing the influx of 
unaccompanied alien children along the southwest border.
    For the past 3 years, the Rio Grande Valley area of Texas 
has experienced a significant rise in illegal entrants, 
including increased amounts of unaccompanied children and 
family units, mostly from El Salvador, Guatemala and Honduras. 
The recent dramatic increase in unaccompanied children is 
difficult and challenging on many levels. To date, this fiscal 
year, the number of unaccompanied children encountered by CBP 
is over 51,000. They have more than doubled this compared to 
the amount encountered over the entire previous year.
    Today, there are just over 2,700 unaccompanied children in 
CBP custody. The Border Patrol's Rio Grande Valley Sector has 
expanded its enforcement actions against identified south Texas 
campaign criminal targets and illicit networks using resident 
and detailed personnel and resources.
    The Border Patrol has augmented Rio Grande Valley's 
personnel with additional experienced agents detailed from 
across the southwest border, allowing the sector the 
flexibility needed to gain more interdiction effectiveness, 
situational awareness, and increase its operational footprint 
in targeted zones within its area of operation.
    These children are an especially vulnerable population 
while in CBP custody. Unaccompanied children are generally 
separated from unrelated adults. They are provided drinking 
water, food, and medical assistance. While these basic 
necessities and facilities may be adequate for a short-term 
stay, CBP facilities were not designed or were services not in 
place to accommodate large volumes for an extended period of 
time.
    We are working closely with ICE, our DHS and other Federal 
partners to surge resources, personnel, facilities, equipment, 
and supplies to quickly, safely, and humanely screen, then 
process children in accordance with the Trafficking Victims 
Protection Reauthorization Act and support the transfer of 
custody to the Department of Health and Human Services Office 
of Refugee Resettlement.
    We are working with ICE, HHS, FEMA, and other Federal 
partners to improve conditions through the utilization of 
alternate facilities, such as the Nogales Placement Center in 
Arizona, to temporarily detain, stage unaccompanied children 
that are awaiting transfer to HHS custody.
    The Border Patrol and DHS Health Affairs have established 
medical units at our busiest stations, and it is conducting 
public health screenings with assistance from the Coast Guard 
and HHS preparedness and response for all incoming adult and 
child detainees. FEMA has deployed field coordinators to assist 
with these efforts, in addition to several FEMA Corps teams to 
the Rio Grande Valley and the Nogales Placement Center to 
assist with the day-to-day care and recreation of the 
unaccompanied children pending transfer to HHS.
    I must commend the work that FEMA has done using the 
National Response Framework in their initial and ongoing 
coordination. The FEMA team has greatly improved the conditions 
for our workforce and these children. Assistance from 
nongovernmental and charity organizations has also had a big 
impact on the government-wide effort to address the needs of 
the children. The additional support in our ramp-up of 
improvements provided much needed relief to law enforcement 
agents and officers who have been and are the caretakers of 
these children in whatever way is needed, including mixing 
formula and giving of their own children's clothing for 
unaccompanied children in need.
    CBP employees are absolutely committed to making sure these 
children are treated in the most respectful and humane way 
possible under this present circumstance. Our agents have 
stepped up to work this problem with compassion, dedication, 
and professionalism. They are to be commended. Border Patrol 
continues to work closely and around the clock with our 
partners to address this humanitarian situation, all the while 
protecting America by securing the border, detecting, and 
interdicting those who attempt to cross our border in violation 
of law.
    I thank you for this opportunity to testify today, and I 
look forward to your questions.
    [The joint prepared statement of Mr. Homan and Mr. Vitiello 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Mr. Goodlatte. Thank you, Mr. Vitiello.
    Mr. Crane, welcome.

 TESTIMONY OF CHRIS CRANE, PRESIDENT, NATIONAL IMMIGRATION AND 
    CUSTOMS ENFORCEMENT COUNCIL 118, AMERICAN FEDERATION OF 
                      GOVERNMENT EMPLOYEES

    Mr. Crane. Good afternoon, Chairman Goodlatte, Ranking 
Member Conyers, and distinguished Members of the Committee. 
Before Congress discusses changes to U.S. immigration law 
related to legalization, it must first ensure that the 
appropriate enforcement safeguards are in place. That is the 
lessen that must be learned from the humanitarian crisis taking 
place on our border.
    Reports from ICE officers in Texas corroborate leaked 
intelligence reports indicating that the majority of 
individuals illegally entering the United States are motivated 
more by rumors of amnesty than the situation in their 
respective countries. Many reporters have confirmed this 
information through their own interviews. If the Administration 
continues current policies, it can expect the crisis to 
escalate and other problems to potentially emerge. Desperate 
people in impoverished countries don't read our laws or 
policies and pay no heed to cutoff dates.
    Continued talk in the United States of legalization without 
appropriate law enforcement safeguards first in place will 
continue to draw millions like a magnet to our southern border. 
The most humane thing we can do to deter crises like this one 
is to consistently enforce our Nation's immigration laws.
    Since the crisis started over a year ago, ICE employees in 
the Rio Grande Valley have been overwhelmed. ICE ERO leadership 
attempted to adjust, but due to extremely limited manpower 
available had little effect. As a result, ERO employees in the 
Rio Grande Valley have worked day and night since the early 
stages of this situation. As the severity of the situation 
increases, however, other ICE ERO offices and facilities 
throughout the Nation are now assisting and experiencing 
similar workloads.
    By way of buses, charter flights, and commercial aircraft, 
ICE officers are transferring hundreds of children, family 
units and adult aliens out of the Rio Grande Valley every day 
to points across the Nation. Without ICE officers performing 
their critical border security mission for the last year, 
border operations in the Rio Grande Valley would have quickly 
broken down. ICE transport planes have been so heavily used 
during the crisis that two additional planes have been leased. 
In addition to support from ICE's transport aircraft, 60 to 120 
ICE officers from around the Nation board commercial aircraft 
daily, escorting groups of children for placement with the 
Office of Refugee Resettlement.
    ICE officers nationwide are under orders to be packed for 
travel and ready to respond day or night. From border areas 
such as the Rio Grande Valley, El Paso, and Arizona, to areas 
on the interior like Chicago, Seattle, and Newark, ICE officers 
are scrambling to process, transport, and provide detention 
space in response to the crisis and support Border Patrol 
operations.
    This crisis is placing a tremendous strain on ERO and its 
limited manpower and resources nationwide. ICE has permanently 
transferred some officers to the border and temporarily 
detailed others. As ERO's role in this crisis broadens, ERO is 
of course experiencing manpower and resource losses within its 
network of offices, detention facilities, and transport assets 
nationwide.
    As one example, a new detention center established this 
week in New Mexico will be manned by pulling ICE officers from 
other locations within the U.S. Fugitive operations teams in 
some areas have been shut down with officers reassigned to 
process and transport children and family units. Officers in 
other programs such as the Criminal Alien Program and Secure 
Communities likewise are pulled daily from their public safety 
missions. ICE ERO's many critical missions, to include its 
criminal enforcement and public safety missions, are being 
impacted.
    Since 9/11, the Border Patrol has tripled in size while ERO 
has become smaller. It seems clear that few are aware that in 
addition to its own enforcement mission, ERO is also 
responsible for the detention, transportation, and removal of 
aliens apprehended by the Border Patrol, making ERO a critical 
border security asset, an asset long overlooked and now 
severely undermanned as it struggles to perform its mission of 
supporting a Border Patrol that has tripled in size.
    In closing, I know that border security is important to 
every Member of Congress. I hope that my testimony today 
regarding ICE ERO's mission during the current border crisis 
assists Congress in addressing the problem and helps clarify 
the critical role ICE ERO plays in border security. ERO cannot 
continue in its current state, drastically understaffed with 
morale plummeting to the record lows.
    We would like to work with Congress and ICE to make the 
agency more mission ready. In the meantime, Congressman Carter 
and the House Appropriations Committee have recommended funding 
for a single officer position at ERO as is currently in place 
at the U.S. Border Patrol. In doing so, the Appropriations 
Committee has taken an important first step in improving the 
law enforcement effectiveness of ERO. We greatly appreciate 
their assistance.
    Thank you. And that concludes my testimony.
    [The testimony of Mr. Crane follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Goodlatte. Thank you, Mr. Crane.
    Mr. Judd, welcome.

 TESTIMONY OF BRANDON JUDD, PRESIDENT, AMERICAN FEDERATION OF 
      GOVERNMENT EMPLOYEES NATIONAL BORDER PATROL COUNCIL

    Mr. Judd. Chairman Goodlatte, Ranking Member Conyers, 
Members of the Committee, I testify before you today from a law 
enforcement perspective. During my 17 years in the Border 
Patrol, I've seen how policy can directly affect border 
security. For the agents on the border, the latest surge in 
unaccompanied minors is not a surprise. This crisis is the 
culmination of a variety of factors, including but not limited 
to:
    First, the Catch and Release program. This program is bad 
policy and encourages people from countries other than Mexico 
to enter the United States illegally. Under this policy, and in 
most cases, individuals entering the U.S. illegally know they 
will be released if apprehended. The result is no one is afraid 
of breaking the law.
    Currently, my understanding is about 90 percent of the 
unaccompanied minors are being placed with either a family 
member or a close family friend, many of whom are in this 
country illegally themselves. Although unaccompanied minors are 
still subject to deportation through the removal process, we 
have to be honest with ourselves: Most will never honor the 
notice to appear in court and face deportation. They simply 
fail to appear and blend into the community.
    Second, under sequestration, Border Patrol manpower was 
decreased by 5 percent. The real-life impact of this decrease 
means that we effectively lost about 1,100 agents. This 
manpower decrease did not go unnoticed for those trying to 
enter the country illegally. It was a good time to try.
    Third, and possibly the most important: organized crime's 
ability to quickly adapt to changes in manpower and policies 
affecting the borders of the United States. Our borders are 
constantly under attack by multinational drug cartels, and this 
latest surge in unaccompanied minors is just another example. 
These cartels have a well-developed intelligence network and 
are very skilled at exploiting our weaknesses.
    It is no coincidence that many of the same cartels 
responsible for the violence in Central America are also making 
hundreds of millions of dollars smuggling unaccompanied minors 
across the border. In fact, the current surge has made all 
aspects of smuggling easier by tying up Border Patrol agents 
with large groups of unaccompanied minors.
    If efficiency and safety were the goal, it would make more 
sense for the cartels to cross unaccompanied minors into the 
U.S. through ports of entry by way of the U.S. Customs Service. 
That way they can manage uncertainties better and avoid risking 
harsh terrains and inhospitable weather while still gaining 
entry to the United States.
    Instead, the cartels purposely cross between ports of entry 
to tie up Border Patrol manpower, creating holes in our 
enforcement and facilitating their other lines of business, 
such as drug smuggling and the smuggling of known criminals 
into the United States. Make no mistake: This is big business 
for the cartels. It has been reported that nearly 40 percent of 
our manpower is being pulled from the field to perform duties 
such as processing and caring for those in our custody. This 
decrease has stressed our workforce to the breaking point and 
makes it nearly impossible to effectively patrol the border and 
fight against organized crime.
    The question I know many of you are asking is what we need 
to do to address this crisis, and I think the following actions 
would improve our Nation's response:
    End our catch-and-release policy. We need to detain 
unaccompanied minors until their cases are properly 
adjudicated. As long as we continue to release unaccompanied 
minors to family and friends, this problem will not only 
continue, but will grow exponentially. Organized crime will 
continue to exploit our weaknesses and take advantage of the 
policy. We know from experience that once released into the 
community, the chance of minors being deported after they fail 
to appear in court is small.
    We need to follow through enforcing the laws of this Nation 
so that breaking the law carries consequences. Do not grant 
special status. This is a corollary to the Catch and Release 
program. We need to be crystal clear that unaccompanied minors 
and their families will not be rewarded for breaking the law 
through special or legal status after being arrested. We need 
to acknowledge that our immigration policies over the last 30 
years have been, at best, inconsistent. If we are to stop this 
latest crisis with unaccompanied minors, we have to change the 
cost-benefit analysis for those who exploit holes in border 
security.
    Address manpower shortfall immediately. Congressman 
Chaffetz introduced legislation called the Border Patrol Pay 
Reform Act that would restore manpower on the border while also 
saving the American taxpayer millions of dollars. This 
legislation is groundbreaking and will increase the efficiency 
and effectiveness of the agency while also saving money. 
Several Members of this Committee are already cosponsors, and I 
want to thank you for your support.
    We also need to strengthen interior enforcement. We have 
already discussed how a lack of consequences for breaking the 
law in the form of the Catch and Release program has encouraged 
a new flood of illegal immigration. By the same token, a lack 
of consequences for those who successfully enter our country 
without being detected is also encouraging illegal immigration. 
We already have laws on the books that, if enforced, will stem 
the flow; however, these laws only work as a deterrent if they 
are consistently enforced.
    This is a difficult issue with no single solution, but I 
believe a fix is well within our reach. The humanitarian crisis 
is real and our agents are fully aware of the hardship many of 
the children have endured in search of a better life or to be 
with their family. Many agents try to contribute in small ways. 
Some spend their own money to buy toys and diapers. Others 
spend time with the minors in what is undoubtedly a very 
confusing environment for them.
    In the end, the current crisis needs to be addressed 
through consistent enforcement of the laws we already have and 
through adequate manpower at the border. We must change the 
current cost-benefit analysis for illegal immigration so the 
rewards and incentives are less appealing.
    Again, I want to thank you for the opportunity to testify, 
and I look forward to answering any of your questions.
    [The testimony of Mr. Judd follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Goodlatte. Thank you, Mr. Judd.
    Reverend Seitz, welcome.

 TESTIMONY OF MOST REVEREND MARK SEITZ, BISHOP, DIOCESE OF EL 
                          PASO, TEXAS

    Rev. Seitz. Good afternoon. Thank you, Chairman Goodlatte 
and Ranking Member Conyers, for the opportunity to testify on 
unaccompanied children entering the United States. I've been 
called to serve the church as a bishop, a bishop of the diocese 
on the border. My challenge is to the best of my ability and 
under the guidance of the church to apply the gospel teaching 
of Jesus to present day situations.
    In visiting with these children in my diocese and in their 
home countries, I have witnessed the human consequences of the 
violence they have endured. This challenge tests the moral 
character of our Nation. It is a test we must not fail. Other 
nations are watching how we handle this matter. Our moral 
authority in the world is at stake.
    Let me say upfront that the U.S. Catholic Bishops support 
the right of our Nation to control her borders and to enforce 
the rule of law. Migration to our country should be orderly, 
safe, and controlled, consistent with the common good. This is 
why the U.S. Bishops have supported the reform of our 
immigration system, so that the rule of law can be restored in 
a humanitarian manner. We hope that the House will understand 
this call and consider immigration reform as soon as possible.
    In our view, Mr. Chairman, the current challenge we are 
facing is driven primarily by factors in Central America and 
Mexico, most specifically the rise of violence against children 
fomented by organized criminal networks, including drug 
cartels. They act with impunity, threatening families and 
coercing children and youth to join their membership or face 
violence and even death. There are more young children 
arriving, many who are young girls, 13 or younger.
    While there are a variety of ongoing push factors, Mr. 
Chairman, including poverty and family reunification, violence 
is the straw that stirs the drink. Otherwise, it is unlikely we 
would see such large numbers of unaccompanied children on our 
doorstep.
    Over the long term, Mr. Chairman, there must be a concerted 
effort to address the root causes of this exodus, specifically 
the rampant violence in the region. As part of this effort, 
humane reintegration practices and prevention programs would 
complement antiviolence efforts.
    For the short-term response, we recommend the following. 
Unaccompanied children should be expeditiously placed in child-
friendly shelters and not warehoused in CBP border facilities. 
Families should not be detained in restrictive settings but 
placed in alternative community settings. Their legal 
proceedings should not be short-circuited and undermine due 
process. Unaccompanied children should be appointed counsel so 
they can navigate our complex legal process. Post-release 
services, including case management support, should be provided 
to children placed with families and in foster care, both for 
their safety and to assure they appear at their legal 
proceedings. Sufficient funding should be provided to care for 
these children so that Federal agencies do not have to raid 
other budgets, such as the refugee budget. Pastoral services 
should be provided to these children and families, including 
visitation by priests, ministers, and other religious.
    Mr. Chairman, with your permission, I would like to relay 
one story of why children are fleeing their homes. In November, 
I led a delegation of the U.S. Conference of Catholic Bishops 
to visit El Salvador, Honduras, Guatemala, and Mexico to look 
at this phenomenon. We met many children who told us their 
stories.
    At the center for detainee children in Tapachula, Mexico, 
we met two boys, ages 15 and 17, who were clean cut and 
respectful. They had recently arrived from San Pedro Sula, 
Honduras, a city with the highest murder rate in the world, 
higher than Kabul, Afghanistan, or Damascus, Syria. Organized 
crime members had attempted to recruit them and had told them 
that they and their families would be killed if they did not 
cooperate.
    The families quickly insisted they leave and flee to 
safety. Now as they waited for repatriation to Honduras, they 
told us they would not return to their home city, to what they 
felt was certain death. They would try again. Any risk they 
faced seemed like a better option than returning to their home.
    This story is typical of many of the children coming north. 
It also shows the decisions faced by parents and families who 
are unable to protect their children in their homes and 
communities. This was brought home to me by a mother of our 
delegation met at a repatriation center in El Salvador who told 
us, I would rather my child die on the journey seeking safety 
in the United States than on my front doorstep.
    In conclusion, I ask you to consider the individual stories 
of these vulnerable children migrants and open your minds and 
hearts to their plight, while seeking meaningful and long-term 
solutions. I ask you to respond to the needs of these children, 
not to turn them away or ostracize them, as Americans are a 
compassionate people. We should not turn our back on these 
children.
    [The testimony of Rev. Seitz follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Goodlatte. Thank you, Reverend Seitz.
    Without objection, I would like to enter into the record 
the following documents: five emails from ICE enforcement and 
removal operations regarding 100 percent reverse escorts, 
unaccompanied minor runaway cases, issuance of notices to 
appear, and unaccompanied minor daily reporting broadcast 
message; a FEMA senior leadership brief; a DHS unaccompanied 
minor fact sheet, which shows that DHS was aware of this 
problem in July 2011; and the four charts presented here today.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Issa. Mr. Chairman, I would like to ask unanimous--Mr. 
Chairman, to your right.
    Mr. Goodlatte. Oh. The gentleman----
    Mr. Issa. I would like to ask unanimous consent to include 
in the record the emails sent to apparently all Members of 
Congress and their staffs on a congressional tour to the 
temporary shelter at the naval base Ventura County in which it 
says, no recording devices, no questions, no interaction, and 
photos will be provided only by the Government, no photography.
    Mr. Goodlatte. Without objection, the emails will be made a 
part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Ms. Lofgren. Mr. Chairman?
    Mr. Goodlatte. For what purpose does the gentlewoman from 
California seek recognition?
    Ms. Lofgren. I would like to ask unanimous consent to place 
the following statements into the record: the statement from 
the First Focus Campaign for Children, Human Rights First, 
Lutheran Immigration and Refugee Service, The National 
Immigration Forum, the U.S. Committee for Refugees and 
Immigrants, the Women's Refugee Commission, the Episcopal 
Church, the American Immigration Lawyers Association, and also 
the chart showing the various numbers of children coming from 
various Central American countries.
    Mr. Goodlatte. Without objection, all the documents will be 
made a part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Goodlatte. For what purpose does the gentlewoman from 
Texas seek recognition?
    Ms. Jackson Lee. Yes. Mr. Chairman, first of all, I am glad 
that the First Focus was put into the record, and I would ask 
unanimous consent to include into the record a statement from 
the United Nations High Commissioner for Refugees, Children on 
the Run, and I would like to put into the record a letter to 
President Barack Obama that mentions that the DACA should be 
ended. I ask unanimous consent.
    Mr. Goodlatte. Without objection, those documents will be 
made a part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Goodlatte. And I will begin the questioning, and I will 
direct this first question to Mr. Vitiello and Mr. Judd.
    Yesterday White House Press Secretary Josh Earnest 
challenged Republicans, stating that if they are truly 
concerned about border security, we should back the 
comprehensive immigration reform package that passed the Senate 
last year and is strongly supported by President Obama.
    Unfortunately, these statements show the Administration's 
lack of understanding of this issue. Its failure to secure our 
borders, mitigate threats to national security, or enforce our 
immigration laws only undermines Congress' ability to reform 
our immigration laws. Further, the Senate bill does not contain 
any provisions that address the problems in current law that 
would allow us to more effectively address the current surge at 
the southern border. We could line Border Patrol agents 
shoulder to shoulder at the southern border, and it would not 
matter, due to this Administration's policies.
    Isn't the point of apprehending aliens to ensure their 
return to their home countries, not to provide them a golden 
ticket into the United States?
    And I will start will you, Mr. Vitiello, and then go to Mr. 
Judd.
    Mr. Vitiello. I am not sure----
    Mr. Goodlatte. The question is, isn't the point of your job 
of apprehending illegal aliens to ensure that they return to 
their home countries, not to provide them a golden ticket into 
the United States?
    Mr. Vitiello. It is the work of the border control to 
interdict people who enter between the ports of entry 
illegally, yes.
    Mr. Goodlatte. Thank you. Mr. Judd?
    Mr. Judd. The question needs to be asked: why are they 
entering between the ports of entry? Why aren't they just going 
to the ports of entry? It would be easier, it would be a lot 
less dangerous. If we line our border and were arresting these 
people and taking our manpower out of the field, we are opening 
up holes for criminal cartels. That is what we are doing.
    Mr. Goodlatte. So the Administration's alleged commitment 
to border security is irrelevant, because the way the laws are 
written and because of the Administration's credible fear of 
persecution and asylum policies, the more Border Patrol agents 
we send to the border, the more opportunities that aliens have 
to turn themselves over to them so that they can then be 
released into the country on the promise of appearing at an 
immigration court hearing years down the road. Is that an 
accurate summary of the situation your agents face?
    Mr. Judd. Our agents are arresting these individuals and we 
turn them over, and what happens to them from there? We are 
seeing what is happening to them from there, but, again, from 
an enforcement standpoint, if we arrest them and we are just 
letting them go, we are going to continue to see more.
    Mr. Goodlatte. And let me ask you this. While 47,00, 
according to these charts, unaccompanied alien minors have 
arrived in the first 6 months of this year, it is not just 
unaccompanied alien minors who are arriving. Adults taking 
along minors are also coming.
    Since 2011, the number of apprehended individuals 
comprising family units has increased from 13,000 to 42,000 for 
this year as of June 16th. Taking into account just half of 
this year, we have seen a 143 percent increase in families 
apprehended at the border since 2012.
    DHS has less than 100 beds for family detention, meaning 
that these families are usually released. Additionally, family 
members of these youth who arrived earlier may have received 
prosecutorial discretion and work authorization.
    To what extent do you think this has caused families to 
come to the United States in violation of the law? And I think 
maybe more appropriately, I should direct that question to you, 
Mr. Homan.
    Mr. Homan. What is the question, sir?
    Mr. Goodlatte. The question is to what extent do you think 
that the families who have arrived earlier may have received 
prosecutorial discretion and work authorization has caused 
families to come to the United States in violation of the law?
    Mr. Homan. Well, I can't speculate on why everybody is 
entering the country. I defer to Border Patrol, because they do 
the interview of the subjects when they enter the country and 
they are processing them. I only know what I read. I haven't 
had the direct contact with the aliens.
    Mr. Goodlatte. And when they do enter, however, you only 
have 100 beds for them. Is that correct?
    Mr. Homan. I have 96 beds.
    Mr. Goodlatte. 96 beds for, this year, 42,000 people. That 
is kind of cramped, isn't it?
    Mr. Homan. I have 96 family beds is all I have.
    Mr. Goodlatte. Thank you.
    Mr. Crane, you want to add anything to that?
    Mr. Crane. I guess, sir, I would just say that it is 
ridiculous. There is no way that we can do our jobs, that we 
can enforce the laws of the United States if we don't have bed 
space to hold people that we apprehend--period.
    Mr. Goodlatte. And Mr. Homan, let me ask you one more 
question. We understand that you are a career law enforcement 
official, and we thank you for that. We are just trying to 
understand the operational realities associated with poor 
policy decisions.
    Part of the White House's mantra on this matter is that 
everyone is being put into removal proceedings, yet as reported 
by the New York Times this weekend, that doesn't really mean 
much, when some will wait years for their first court date, 
then there will be procedural moving and posturing that will 
last years, even if the aliens show up for their court dates, 
which many will not.
    By the time a removal order is issued, won't these 
individuals be so low on the totem pole for removal, that ICE's 
stated priority is that they will never actually be--under the 
stated priorities of ICE, that they will never actually be 
removed; is that the case?
    Mr. Homan. I can say that every unaccompanied child and 
every family unit member, our surge with NTA's and scheduled to 
be put in front of a immigration judge, and so that they had 
the proceedings scheduled, but it is years out. I mean, there 
is a lack of immigration judges, so some of these hearings take 
years. It can take 2 years, it can take 5 years.
    Mr. Goodlatte. In fact, isn't it true that ICE has only 
been able to remove less than 2,000 unaccompanied alien minors 
per year since 2011 as we have seen this surge taking place?
    Mr. Homan. Yes. Last year we removed 1,800, but, again, as 
I said about the immigration courts, when we looked at all the 
unaccompanied alien children that were--NTA's were filed with 
the immigration court in the last 5 years, 87 percent of them 
are still in proceedings. We have no final orders.
    Mr. Goodlatte. Thank you.
    The Chair recognizes the gentleman from Michigan, Mr. 
Conyers.
    Mr. Conyers. Thank you.
    As we have listened to this story unfold, many, including 
some of the witnesses today, say that we can only stop the 
migration flow by changing the cost-benefit analysis made by 
these children.
    And I wanted to start off with you, Deputy Chief Vitiello, 
and ask you this question: might it not be clear that the 
possibility of coming to this country is motivated by a huge 
fear of violence and death that many of these children have in 
their home countries, and as a matter of fact, an attitude 
shared frequently by their parents as well?
    Mr. Vitiello. In the reporting that I have seen, there are 
several factors. The violence and conditions at home is among 
one of the top four, correct.
    Mr. Conyers. And do you have any reason to believe that 
your organization and Enforcement and Removal Operations are 
all working in good faith with Homeland Security to do their 
best in terms of an incredibly dangerous situation?
    Mr. Vitiello. So we have done quite a bit to improve 
conditions on the ground in RGV. With FEMA's help, with some 
help from the Coast Guard, Office of Health Affairs, we are 
doing the best we can given the situations faced there.
    Mr. Conyers. Are there any assurances that you will be 
getting even further assistance?
    Mr. Vitiello. We have gotten quite a bit of help from FEMA 
and the interagency coordination directed under the national 
response framework continues, so increased transportation both 
from ICE and from other sources, increased detention capacity 
for ICE, and increased placement or places for placement within 
HHS.
    Mr. Conyers. And my last question to you, is that, our 
staff reports that the number of unaccompanied children from 
Nicaragua that have been apprehended by Border Patrol for this 
fiscal year is 164. Does that comport with your records or 
knowledge?
    Mr. Vitiello. I don't have that number in front of me. I 
know that the number from Nicaragua is small in comparison to 
the other three.
    Mr. Conyers. Thank you very much.
    Bishop Seitz, how do we deal with a problem of these huge 
vulnerable populations from these three countries, El Salvador, 
Guatemala and Honduras, and have to recognize that from other 
countries around, we don't have these same numbers? Doesn't 
that seem like some kind of a discrepancy to you or an anomaly 
that we might want to inquire into?
    Rev. Seitz. Yes, Mr. Conyers. You began by asking how do we 
deal with an issue so large, and, of course, my first answer is 
always a good deal of prayer would be a good idea. It is a huge 
problem--huge challenge that we face.
    I think it is so interesting that when you look at the 
sending countries, that Nicaragua is involved in that number. 
It is the one thing that we can distinguish is different in 
Nicaragua from those other three is the presence of pervasive 
violence within those countries, and so certainly a part of the 
response has to be that we need to do what we can, both church 
and our Government, to try and bolster the ability of these 
Governments and communities to deal with the incredible levels 
of violence, unimaginable levels of violence that these 
families are facing.
    Mr. Conyers. I want to thank you for your comments.
    And I also want to thank the entire panel for the 
seriousness which they approach the gravity of this incredible 
circumstance of young people who are risking their lives and 
are exposed to all kinds of unimaginable dangers in terms of a 
risk of trying to get to this country.
    My last observation, if I can, it is very quick, do you 
have any information that our Government could in any way be 
aiding or encouraging them to come to this country?
    Mr. Goodlatte. We will allow a brief answer.
    Mr. Conyers. Well, I don't have any answer right now, so--
--
    Mr. Goodlatte. Well, if they have answers, they can submit 
them at any time.
    Mr. Conyers. Yeah.
    Mr. Goodlatte. The Chair now recognizes the gentleman from 
North Carolina, Mr. Coble, for 5 minutes.
    Mr. Coble. I thank the Chairman and I thank the panelists 
for being with us today.
    You all may have touched on this, Mr. Vitiello, but if you 
did, I want you to reiterate it. What consequences specifically 
would you like to see put in place to stem the flow of unlawful 
aliens into our country?
    Mr. Vitiello. So I think that consequences matter. When we 
were struggling with the high levels of illegal migration in 
Tucson, we did quite a bit of work to find out and classify 
people as they were being apprehended and to place them into 
some sort of proceedings, whether Federal prosecution or 
administrative hearings for removal.
    Mr. Coble. Now, these were juveniles for the most part?
    Mr. Vitiello. No. No. The problem in Tucson was much 
different.
    Mr. Coble. Okay.
    Mr. Vitiello. These were adults and mostly from Mexico. And 
so what we are working on together in the interagency, 
specifically with ICE's help, is increased detention for the 
family units. We think that that is going to make a difference 
in this problem.
    Mr. Coble. Of course the Bishop suggested it is always in 
order, prayer should not be cast aside.
    Mr. Vitiello, I want to ask you this: We have been reading 
a lot about these juveniles, unescorted juveniles coming to the 
border. When did this start?
    Mr. Vitiello. I think we have seen an increase over the 
last several years. This year is much different than anything 
we have seen previously. Typically in the last several years, 
the high levels of traffic would have leveled off, if you will, 
in the spring, and this year it has not.
    Mr. Coble. Well, has enforcement during this time been 
relaxed as far as enforcing our immigration laws?
    Mr. Vitiello. It has not.
    Mr. Coble. Let me ask you this, and I am not sure how I 
want to frame this, but, whoever can answer this. To what 
extent has there been an increase in gang entry, members of 
gangs who are coming, be they juveniles or adults?
    Mr. Vitiello. So that is always a concern for law 
enforcement and agents in the field ourselves. We haven't seen 
a marked increase in the number of people who are gang 
affiliated or criminal records during this influx.
    Mr. Coble. Because I know much of Mexico is gang infested. 
I just didn't know how much pour-over there may have been. 
Anybody else want to put their oars into these waters?
    Mr. Judd. Yes, Congressman. What we have to look at is most 
of these unaccompanied minors, they are coming across and they 
are giving themselves up. The gang members don't come across 
and give themselves up. So what we are seeing in influx is 
unaccompanied minors. There very well could be an influx of 
gang members. Unfortunately, because our workforce is so 
stressed and we are creating the holes, it is becoming much 
easier to smuggle those that would do harm to our country 
through the holes that are being created.
    Again, the question has to be asked: why aren't they 
presenting themselves at ports of entry, at secure locations 
instead of going through dangerous desert terrain, across 
rivers, over fences? They could easily go to the ports of entry 
and present themselves there, ask for asylum, and receive the 
exact same thing that they would be getting through going 
through the desert, but they are not doing that. They are going 
through the desert and they are stressing our resources.
    Mr. Coble. I am wondering if the parents of these juveniles 
were told, send your kids to America, we will take care of 
them, and then they relied upon this to their detriment. 
Anybody know anything, any more details about that, whether 
they were told, when they were told, if they were told? Bishop, 
do you?
    Rev. Seitz. I am sure that some folks, the coyotes, the 
ones who bring them across, have been building up that 
possibility, there is no question about that, but, again, from 
what we have seen and heard, the main reason that they are 
deciding to leave and still face the tremendous dangers that 
they face on the journey is because they don't feel they have 
any other choice, because of the violence.
    Mr. Coble. I thank you. Thank the gentlemen.
    Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Recognizes the gentlemen from New York, Mr. Nadler, for 5 
minutes.
    Mr. Nadler. Thank you. Before I start my questions, let me 
first express my dismay at the title of this hearing, ``An 
Administration-Made Disaster: The South Texas Border Surge of 
Unaccompanied Alien Minors.'' It shows what a farce it is. You 
announce the conclusion before the inquiry. We are here, 
presumably, if we are here for any purpose other than politics, 
to find out what is going on and why we have this surge at the 
border, but the conclusion is announced in the title.
    Now, the conclusion, I believe, is wrong, but nonetheless, 
a proper title for the hearing might be, A Disaster, or A 
Problem: The South Texas Border Surge of Unaccompanied Alien 
Minors, instead of saying it is the Administration's fault to 
start with. Now, maybe it is. I don't think so, but that is the 
conclusion. And it is wrong to have a hearing with a conclusion 
announced before you start the testimony.
    Bishop Seitz, we have heard today and you have talked about 
the dismaying violence that is propelling these kids to come 
here, through danger to come here, et cetera. We have also 
heard that the immigration policies of the Obama 
administration, particularly its Deferred Action for Childhood 
Arrivals policy, is responsible for the recent wave of 
unaccompanied alien children fleeing to the United States, that 
these kids are making a sophisticated cost-benefit analysis, 
and with their sophisticated understanding of American policy, 
they are determining that, well, if I get into the United 
States, I probably won't have a hearing for a few years and I 
probably will be in a bed somewhere, so I might as well trek 
across the desert and come here.
    How would you respond to the assertion that what is causing 
this surge in kids coming here unaccompanied is the 
Administration's policies, Deferred Action for Childhood 
Arrivals, as opposed to the violence in these countries that we 
hear about?
    Rev. Seitz. Well, from what I have seen, there hasn't been 
a significant change in recent months in Administration policy, 
as far as I know. What has changed, it appears, is the violence 
on the ground in these countries.
    In Honduras, if you can imagine this, the population of the 
country is something like 8 million; the number of children 
being killed each month has been in the last couple of years 
around 70 children; in the month of May, it was 102.
    And so it seems that gangs and narcotraffickers are 
choosing to target children and to try and co-opt them into 
their gangs to cooperate in their work.
    Mr. Nadler. So these kids are fleeing in terror, in effect?
    Rev. Seitz. Exactly.
    Mr. Nadler. Now, are we seeing an increase, a similar 
increase in unaccompanied youth fleeing these three countries 
for other countries just to get out of there?
    Rev. Seitz. Well, that is what one would expect if it were 
simply owing to poverty and then an Administration invitation, 
but as I mentioned and what others did as well, Nicaragua, 
which is perhaps even poorer than those other countries that 
are senders, has not seen a change in----
    Mr. Nadler. No, no. You misunderstood my question. From the 
three countries where the violence is----
    Rev. Seitz. Yes.
    Mr. Nadler [continuing]. Have we seen an increase in kids 
fleeing there for places other than the United States?
    Rev. Seitz. Oh, I am sorry. Yes, we have. We have seen huge 
increases. I believe the chart that was up earlier, I don't see 
where it went to, shows that, that countries that are 
receiving, such as Panama, Belize, Nicaragua itself, are 
receiving many more----
    Mr. Nadler. Many more.
    Rev. Seitz [continuing]. Asylum seekers.
    Mr. Nadler. And this would be consistent----
    Rev. Seitz. I think it is up 400 some percent.
    Mr. Nadler. This should be consistent with the conclusion 
that this increase in kids coming across, coming here as well 
as other places is because of the violence, not because of any 
Administration policy.
    Let me ask Mr. Vitiello or Mr. Crane, would you say 
anything to disagree with what Bishop Seitz was just 
discussing? Is there any evidence--well, why should we not 
reach the conclusion that this increase in kids, unaccompanied 
kids coming to the border and presenting themselves to the 
border, not trying to sneak across the border, presenting 
themselves to the border guards, why should we not believe that 
this is because of violence and that it is because instead of 
some Administration policy and something else?
    Mr. Vitiello. Violence is one of the contributing factors, 
but there has been some confusion reported by the media in 
these locations, that there is some benefit to be had in the 
United States. That is why it is important, I think----
    Mr. Nadler. And that explains why they are going to other 
countries, too?
    Mr. Vitiello. I am not sure, but I think it is important to 
recognize that the Secretary did write an opinion piece for an 
editorial to the families of people in these countries to tell 
them that there isn't this benefit that maybe smugglers, maybe 
others, maybe the media is promoting that don't exist.
    Mr. Nadler. Is there any real evidence, Mr. Crane or Mr. 
Vitiello----
    Mr. Goodlatte. The time of the gentleman has expired.
    Mr. Nadler. Can I finish this question?
    Mr. Goodlatte. You can finish the question.
    Mr. Nadler. Okay.
    Mr. Goodlatte. Very quickly.
    Mr. Nadler. My question is, the entire premise of this 
hearing is that it is Administration policy on Deferred Action 
for Childhood Arrivals that is causing this problem.
    Are you aware of any evidence that it is that as opposed to 
violence in the sending countries?
    Mr. Judd. I work for the Border Patrol, so we are the ones 
that arrest them upfront. What we have to do is we have to 
interview these individuals that we arrest, and one of the 
things that we have to ask, especially if they ask for asylum, 
we have to ask what is the credible fear, and oftentimes they 
will tell us that they are coming here to be reunited with 
their family or they have been told that they'll be released if 
they come.
    So, yes, in the initial interviews that take place with the 
agents and those people that we arrest, they are telling us 
that they are--they are coming here because radio is telling 
them that if they come, they will be released, the churches are 
telling them if they come, they will be released, and other 
organizations are advertising. These are the initial interviews 
that are taking place, and they are documented. These 
interviews are documented. They are a matter of record.
    Mr. Goodlatte. The time of the gentleman has expired.
    The Chair announces that there is a series of votes on the 
floor. The Committee will reconvene immediately following the 
votes, but we have time to get one more Member's questions in.
    So the Chair will now recognize the gentleman from Alabama, 
Mr. Bachus, for 5 minutes.
    Mr. Bachus. I appreciate that.
    Bishop Seitz, I have worked very closely with the Catholic 
church on debt relief and Jubilee and had the debt relief bill 
in the House, and I have actually spoken out for legalization 
of 12 million immigrants that are here, I have spoken out for 
the need to have some pathway to citizenship for our dreamers, 
I have criticized the Alabama bill, I was probably one of the 
only public officials that criticized it as being an overreach, 
so I think I have established at least an immigrant friendly 
position, and I very much sympathize with them. We are a 
country of immigrants.
    I am curious, these children are coming from Honduras, 
Guatemala, I guess El Salvador and some from Mexico, but the 
Catholic church obviously, and I think you-all offer more--I 
think your statement, you are the largest refugee resettlement 
agency in the world. Is the church undertaking any effort to 
discourage these children from taking these long journeys, or 
others? Are you speaking out in these countries, the church, 
the Bishops, the fathers?
    Rev. Seitz. Very much so. During our mission to Central 
America in November, we spoke to many groups that are working 
with the children, with the youth in these areas, and their 
universal message is don't go, and that is personally a message 
that I have conveyed when I have been there speaking to young 
people.
    We really want to do what we can to stabilize their 
situation there. There is a program, I believe it is organized 
by Catholic Relief Services called Youth Builders, which is 
working directly to help children who are at risk for fleeing 
to be able to stay, and they've been very successful.
    Mr. Bachus. And, I think even speaking out against the drug 
trafficking, the violence, the church, I think, would be very 
effective in doing that, because I don't think whether you're 
pro-immigration, anti-immigration, you don't want these 
children being sent unaccompanied.
    Even with the Governments, I don't know if the Catholic 
Church in countries like Mexico, these countries, they have 
quite a bit of political clout, even going to the president of 
Mexico and saying, you are allowing trains to come here, 
freight trains just with children hanging off the tops. That 
could be stopped. I mean, I would think just a minimal 
Government effort could stop a lot of that. I mean, I can't 
imagine the Mexican Government not being able to stop children 
on their border. I know some of this is just a force and a 
demographic.
    Rev. Seitz. Yeah. We certainly don't encourage them to make 
the journey. At the same time, I think we have to recognize 
that if these children feel that their life is in danger, they 
may well feel like a person----
    Mr. Bachus. But are there--are there ways----
    Rev. Seitz [continuing]. Trying to get out of a burning 
building.
    Mr. Bachus. Are there ways to offer those children a place 
of refuge within those countries where the Catholic church has 
a large presence, I mean, in convents and in places, we have 
boys, girls ranches here, places of that nature?
    Rev. Seitz. We have a large presence, but unfortunately 
limited resources. We are trying to do the best that we can 
with the resources we have.
    Mr. Bachus. Well, that is what he was saying wouldn't they 
be safer if they stayed in Honduras and El Salvador. I wish the 
church, and I am not speaking--I wish we all would say, is 
there a way to stabilize the situation there. I really think--
and, if they make it to the United States, you offer them 
shelter and refuge. That almost in a way, and I know it is not 
your intention, but does that create somewhat of a magnet?
    Rev. Seitz. When they arrive to the United States, I don't 
think we can say, ``I am not going to show you compassion. I am 
going to leave you on the street''----
    Mr. Bachus. Sure.
    Rev. Seitz [continuing]. ''Because I don't want to 
encourage anyone else.''
    Mr. Bachus. Yeah.
    Rev. Seitz. We have to care for the situation as it is at--
and those children in need.
    Mr. Bachus. I would just encourage you, because they are 
going to continue to do so, that there needs to be an effort, 
and I know I am speaking to the choir.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Mr. Gohmert. Mr. Chairman, could I ask unanimous consent to 
submit for the record from ICE, an escort services for 
unaccompanied alien children solicitation BERKS RFI, noting 
that they are expecting 65,000 unaccompanied children in the 
months ahead? This was in January of this year. I would ask 
that it would be submitted into the record.
    Mr. Goodlatte. Without objection, it will be made a part of 
the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Goodlatte. And the Committee will stand in recess until 
the conclusion of this series of five votes.
    For the witnesses, I would advise I expect it to be 45, 50 
minutes, so make yourselves comfortable, you can go get 
something to drink or whatever, but we will reconvene probably 
close to 4:00, 4:30.
    The Committee will stand in recess.
    [Recess.]
    Mr. Issa [presiding]. In order to be respectful of all of 
your time, I am going to recognize Mr. Scott and allow him to 
continue. Thank you for your patience.
    The gentleman is recognized.
    Mr.Scott. Thank you.
    Mr. Homan, has any law changed that created the situation 
we are in?
    Mr. Homan. What law are you referring to, sir?
    Mr. Scott. Well, we have a new situation. Was that because 
of any change in the law, just change in circumstances? I mean, 
the children are showing up.
    Mr. Homan. The law has not changed.
    Mr. Scott. Okay. Now, when a child shows up and is 
apprehended, what sanction does the law now provide?
    Mr. Homan. When the child is apprehended by the Border 
Patrol, they process the child, look at documentation to 
identify the child. If they identify that child as being 
unaccompanied, which means he is not in the presence of a 
parent or legal guardian, then either Border Patrol or ICE will 
contact Health and Human Services and advise them that we have 
an unaccompanied alien child. We have 72 hours to turn them 
over to the custody of ORR. My office, per the Trafficking 
Victims Protection Act, requires that ICE transport that child 
from CBP custody to a bed that is identified by HHS.
    Not only is it within the TVPRA that we are required to do 
that by law, it is also in my appropriations. I am appropriated 
for the transportation of aliens, which includes, and even 
delineates that, includes the transportation of unaccompanied 
alien children.
    Mr. Scott. Is each child entitled to an individualized 
hearing?
    Mr. Homan. Yes.
    Mr. Scott. And are they entitled to lawyers?
    Mr. Homan. Pardon me?
    Mr. Scott. Do they have lawyers?
    Mr. Homan. Most of them do not.
    Mr. Scott. They have a right to a lawyer; is that right?
    Mr. Homan. Yeah. They have a right to a lawyer at their own 
expense.
    Mr. Scott. But if they can't afford it, no lawyer is 
provided?
    Mr. Homan. Correct.
    Mr. Scott. Now, you have to ascertain whether or not they 
are victims of trafficking. Is that right?
    Mr. Homan. Yes. I will defer to Border Patrol, that is part 
of their processing and review that Border Patrol does with 
each UAC.
    Mr. Scott. And when do you ascertain whether or not they 
are actually entitled to political asylum?
    Mr. Homan. I will defer that to the Border Patrol.
    Mr. Scott. Border Patrol?
    Mr. Vitiello. So, in the screening that the Border Patrol 
does onsite, they are screening for credible fear. And then if 
there is an indication of credible fear, then the matter is 
referred to the asylum officers at Citizenship and Immigration 
Services, also of the Department, but it would move to their 
venue.
    Mr. Scott. And what happens in that venue?
    Mr. Vitiello. So as I understand it, then those officers 
will review and do an interview to define whether or not 
credible fear exists or there is a likelihood that credible 
fear exists and then they will refer the person to an asylum 
hearing.
    Mr. Scott. And how long does the asylum hearing take?
    Mr. Vitiello. I am not familiar with that. They are 
referred to the immigration court for that purpose.
    Mr. Scott. Now, does Border Patrol and immigration, do you 
have enough resources to process all these children that are 
showing up?
    Mr. Vitiello. So, we are, in fact, processing them rather 
quickly, given their age and the circumstance and--yes.
    Mr. Scott. But the present law provides that you find a 
suitable placement for each one?
    Mr. Vitiello. Right. So, we were there on Friday, we were 
in the RGV Friday where this problem is most acute, and we 
heard from the folks on the ground that are doing this work 
that they can process within the first 20 hours or so, and then 
the rest of the time that they are in our custody is waiting 
for suitable space to send them to.
    Mr. Scott. Are the children entitled to protection under 
the Prison Rape Elimination Act?
    Mr. Vitiello. They are.
    Mr. Scott. They are? Wherever they are placed?
    Mr. Vitiello. Correct.
    Mr. Scott. Is that your understanding, Mr. Homan?
    Mr. Homan. Yes.
    Mr. Scott. Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. Goodlatte [presiding]. The Chair recognizes the 
gentleman from California, Mr. Issa, for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    Chief Vitiello, let me ask a couple of questions following 
up on Mr. Bobby Scott's questions. If someone tells you their 
name, do you have any way to verify it for a 13 year old who 
simply says, this is my name.
    Mr. Vitiello. Well, agents will use their experience. If 
the person has documents or some----
    Mr. Issa. Right. But if they have no documents, they simply 
say, I am Joe.
    Mr. Vitiello. So, unless they have a prior history in the 
U.S.----
    Mr. Issa. So if their prints aren't on file, and they tell 
you a name, you have to accept the name. Do you know their age 
other than guessing it, because they tell you their age. Is 
that correct?
    Mr. Vitiello. Again, if they have other documentation, et 
cetera, then we can verify that, but----
    Mr. Issa. Okay.
    Mr. Vitiello [continuing]. But it is essentially an 
interview done by law enforcement----
    Mr. Issa. Okay.
    Mr. Vitiello [continuing]. Professionals.
    Mr. Issa. You say you do your best on trafficking, but if 
they are from countries where people have put a gun to their 
parents' head, they are going to do their best to not have 
their parents killed by their not getting through, so they are 
going to lie about being victims of traffic; isn't that 
correct?
    Mr. Vitiello. I am not sure I understand.
    Mr. Issa. Well, the minority would have you believe and the 
Reverend would have you believe that people come here only 
because they are trying to escape this murderous violence that 
seems to exist in every country but Detroit, Michigan.
    So the question is, you are trying to, and I appreciate you 
are trying to figure it out, but you really don't know if they 
are victims of trafficking. Now, if they don't have tattoos and 
they have never been identified with fingerprints, you don't 
know if they are gang members coming to this country or in some 
other way coming here to commit crimes; is that correct?
    Mr. Vitiello. So agents can try to verify whether or not, I 
mean, based----
    Mr. Issa. No. Look, and I appreciate it. I work with the 
Border Patrol a lot. The fact is I appreciate everything you 
are trying to do. I am just trying to ascertain, with the 
President willfully and deliberately forcing into this country 
a vast amount of people that you are trying to look through and 
do the best you can, how you are being swamped and what your 
limitations are.
    Now, what bio identification are you taking from a 1-year-
old, 5-year-old, 10-year-old, 15-year-old person?
    Mr. Vitiello. So that is all based on interview. That is 
all, like a----
    Mr. Issa. A bio identification.
    Mr. Vitiello. For----
    Mr. Issa. Fingerprints?
    Mr. Vitiello. Under 14, no.
    Mr. Issa. Okay. So if I am under 14 and I say I am under 14 
and I look under 14, and I am a gang member that has been 
deported, you don't know that, because you are not taking his 
fingerprints. If I am under 14 and I am being trafficked, you 
can only hope that you can spot the fear to find out whether or 
not they are actually being brought here for illicit purposes 
by somebody who says that they are an accompanying parent.
    All that is true, and you are taking no bio information. So 
the truth is these people can disappear completely, and the 
name and statement they gave is of no value, because you have 
no markers to then recover Jose or Jane or whoever who says, 
``I am 13. I am coming here and this is my name.'' At the point 
that you turn them over, you no longer have any ability to 
bring them back, because you have no identification; isn't that 
true?
    Mr. Vitiello. It is much harder that way.
    Mr. Issa. Okay. So children are, in fact, a very useful 
tool for an adult to bring in, because you don't have any 
identification for them, and if they simply say--if they grab a 
12 year old or a 13 year old and say, ``I will get you over the 
border, you get me over the border. Just tell them I am your 
mom,'' they can do that, and you really have no protection 
against that; isn't that true?
    Mr. Vitiello. I assume that is possible. That is not what 
we are seeing currently.
    Mr. Issa. What you are seeing is a flood of illegals coming 
here prepped to say whatever they need to say to get to stay 
here, because the President of the United States has told them 
in no uncertain terms if they get here, he won't enforce the 
law, or he won't allow you to enforce the law strictly; isn't 
that true?
    Mr. Vitiello. That is not reflected in the reporting that I 
have seen.
    Mr. Issa. Well, let's look at these numbers. The numbers 
are skyrocketing. Is there dramatic new violence in the areas 
these people are coming from, dramatic new violence, or, in 
fact, are they coming from areas like Guatemala, where violence 
is down, isn't it?
    Mr. Vitiello. So the reports that we see have a variety of 
things. There is about four major factors.
    Mr. Issa. Well, can anyone else answer the question I 
asked? Is violence down in Guatemala and are people coming in 
larger numbers?
    Mr. Vitiello. I am not specifically aware of the rates of 
violence.
    Mr. Issa. Right. Anyone else can answer that question? Is 
there anyone that can answer the question of, is there any 
proven correlation between violence and people and where they 
are coming from? Because I can tell you one thing, and I have a 
lot of people who are first, second and third generation who 
came in on Bracero programs and so on who worked with me for 
years, and they are friends and I have been to their weddings, 
they do not come from the poorest areas of Mexico; they come 
from the areas of Mexico that came before them, they come 
because they have association.
    So I would say to you that until you prove it to this 
Committee, we cannot accept the link that you are claiming 
between some violence and this refugee status versus the link 
between the President's not enforcing the law, not living up to 
his responsibility, not letting you live up to his 
responsibility, and this carnage that can occur when children 
are pushed over the border, in some cases left in the desert.
    Mr. Chairman, I appreciate your holding this important 
hearing, and I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Recognize the gentlewoman from California, Ms. Lofgren, for 
5 minutes.
    Ms. Lofgren. Thank you. Thank you, Mr. Chairman.
    Just a note. Mr. Judd, you mentioned that there was a catch 
and release policy and I just wanted to note for the record 
that this isn't a policy, it is the law, and has been the law 
since 1997 when we had the Flores case settled and then Dick 
Armey's bill in 2002 that was enacted into law, signed by 
President Bush, and then reinforced in the 2008 statute. So it 
is not just some random decision. It is required by law.
    I wanted to ask you, Mr. Vitiello, you have been in the 
Border Patrol for 29 years, so I think you probably have a 
pretty good sense of how all of this works now as compared to 
past years, and I have no doubt that the number of children 
arriving each day is likely placing a strain on Border Patrol 
agents and facilities, but would you say the situation 
evidences a security problem necessarily?
    Mr. Vitiello. Well, in the reports that we got Friday when 
we were there, it was clear to me that based on the reporting 
that is available locally in Rio Grande Valley, that most of 
the family units and the children are coming out of a couple of 
zones along the southwest border. We break down the operational 
area by zones, and, in fact, in Rio Grande Valley, most of this 
traffic is coming out of a couple of zones there, and by and 
large, the traffic is seeking out agents, not the reverse.
    Ms. Lofgren. So----
    Mr. Vitiello. So people are coming up to these agents.
    Ms. Lofgren. So people are coming up and they are trying to 
find you to give themselves up?
    Mr. Vitiello. That was what we heard Friday.
    Ms. Lofgren. And then make their, whatever claim. I would 
note just for the record that when someone comes and appears, 
and again, this is not a new policy, this is in the law that 
the Congress created; there are several ways to comply with the 
law and gain status and if you are the victim of trafficking, 
in the Anti Slavery law that we passed unanimously in this 
Committee, you are eligible for T Visa as a victim of 
trafficking; and if you are a victim of crime and if a law 
enforcement officer in the United States requests it, you are 
eligible for a U Visa.
    And if you are a child who has been abandoned and you have 
no one here, you can be eligible for a special immigrant 
juvenile visa, and that was really created because we had kids, 
and I remember this goes back to the 1970's where you would 
have a child who appeared, 5 years old, no parents, they are in 
foster care, but what is their status?
    And if they are going to be part of the country, they are 
in foster care, you have to give them some status, and, if they 
are going to be part of our country. So these kids may fit into 
some of those categories that Congress created. And then there 
is a further category, which is asylum.
    And if you take a look at the origin of most of these kids, 
it is pretty clear that there is a problem going on in three 
countries in Central America. That doesn't mean all these kids 
will be eligible for asylum. The case has to be established and 
looked at individually, and they may or may not be qualified 
and if they aren't, they are going to be removed back to their 
country of origin; isn't that correct?
    Mr. Vitiello. That is correct.
    Ms. Lofgren. So, the only way to do that is to have a case-
by-case review. And I am sorry that we don't have a witness 
from the Department of Justice, because the immigration judges 
are actually employees of the Department of Justice.
    And it occurs to me that we have these extraordinary delays 
in the adjudication of matters because we don't have enough 
personnel, not necessarily in ICE or Border Patrol, although I 
am sure you could always use more, but that we don't have 
enough immigration judges and lawyers to actually adjudicate 
these matters; are you able to comment on that?
    Mr. Vitiello. That is our experience. We would like to see 
those cycle faster for a number of reasons, and it is part of 
the work that we are doing within the unified command group.
    Ms. Lofgren. I have just one final question. The 
Administration recently announced it is going to be opening a 
700-bed family detention center at the Federal Law Enforcement 
Training Center in Artesia, New Mexico I am interested in this, 
I am going to be following it closely, and I want to make sure, 
I guess this is to you, Mr. Homan, that we learn the lessons of 
the Hutto Center in the past.
    I remember when that opened and we sent the chief counsel 
for my Subcommittee down, and we had 5-year-old children in 
prison uniforms and conditions that were so egregious, that 
eventually lawsuits were filed, the facility was closed. I do 
agree that we need to have, you know, facilities to accommodate 
this surge, but I hope that as you do that, we are learning the 
lessons from the mistakes of the past. I don't know if you 
could comment on that facility.
    Mr. Homan. You are correct that we are in the process of 
increasing family detention at the FLETC Academy in Artesia. We 
are planning for 700 beds. Yes, we are very well aware of the 
Flores settlement agreement. We are aware of the requirements, 
which are vast. I mean, our family residential standards is a 
5-inch book, so there is a lot of requirements we must meet 
under Flores, and we have an entire team there that has been 
there for 2 weeks to make sure we address as many of those 
Flores requirements as necessary.
    Mr. Goodlatte. The time of the gentlewoman has expired.
    The Chair recognizes the gentleman from Virginia, Mr. 
Forbes, for 5 minutes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Judd, you are here, as I understand it, representing 
the border agents; is that true?
    Mr. Judd. That is correct, yes, sir.
    Mr. Forbes. And how many border agents would that be that 
you would represent?
    Mr. Judd. Roughly 16,500.
    Mr. Forbes. Mr. Homan, you were asked if the law had 
changed, and I think your answer was that it had not changed; 
is that correct?
    Mr. Homan. When it comes to the transportation of 
unaccompanied alien children.
    Mr. Forbes. But you wouldn't deny that the enforcement 
policies of this Administration have changed, would you?
    Mr. Homan. The enforcement policies have changed.
    Mr. Forbes. Have changed.
    Mr. Crane, you are here representing the ICE agents, as I 
understand it; is that correct?
    Mr. Crane. Yes, sir.
    Mr. Forbes. And how many ICE agents would you be 
representing?
    Mr. Crane. Approximately 5,000, sir.
    Mr. Forbes. Of those agents, are you familiar with whether 
or not Homeland Security Secretary Johnson conducted a town 
hall meeting at a DHS office in Fairfax, Virginia, on April 
23rd, 2014, with ICE agents and officers present?
    Mr. Crane. Yes, sir. I have spoken to the officers that 
were present at the meeting.
    Mr. Forbes. To your knowledge, did the ICE agents voice 
strong concerns to the Secretary that gang members, other 
public safety threats and criminals are being released due to 
new Administration DHS policies, such as Deferred Action for 
Childhood Arrivals and John Morton's Arrest Priorities 
memorandum?
    Mr. Crane. Yes, sir. That is what was reported to me.
    Mr. Forbes. And did these officers and agents tell the 
Secretary that the Administration's policies have tied their 
hands, preventing them from keeping many dangerous criminals 
off the streets, and that their opinion is boots on the ground 
officers in the field and new policies are a failure?
    Mr. Crane. Yes, sir. And I would add to that, that that is 
the message that every DHS and ICE leader is hearing at every 
field office we have. When they go out to these town hall 
meetings, officers and agents are standing up and saying 
exactly the same thing each and every time: these policies are 
not working.
    Mr. Forbes. Were these statements by ICE agents and 
officers clear enough for Secretary Johnson to understand them 
and were they forceful enough for him to remember?
    Mr. Crane. The statements that were relayed to me, 
absolutely, yes, sir.
    Mr. Forbes. And it would probably surprise you that a month 
later when he was testifying before us, he couldn't remember 
those statements and how they were phrased.
    Mr. Judd, your testimony, as I understood it, a little bit 
earlier, representing that 16,500 border agents was that from 
the interviews that you are getting, they are telling you, 
these individuals coming over, that one of the primary reasons 
they are coming is because they think there is a lenient 
enforcement policy in place in the country; is that a fair 
representation?
    Mr. Judd. When we were on break, I made a couple of phone 
calls to agents that are in the processing centers, and they 
reiterated exactly that.
    Mr. Forbes. Do any of those interviews reflect that they 
are coming here equally because of this violence, an uptick in 
violence that is taking place?
    Mr. Judd. That is one of the other reasons that they are 
reporting, yes.
    Mr. Forbes. Do you have any evidence--Mr. Issa just 
mentioned about this uptick in violence that is kind of being 
alleged here taking place since 2009. Do any of you have 
anything you can supply to the Committee today of any 
particular uptick in the violence that has happened in all of 
these countries that is taken place? And I don't hear anybody. 
And then----
    Rev. Seitz. I could----
    Mr. Forbes. You----
    Rev. Seitz [continuing]. Speak to that. In Honduras, as I 
believed I mentioned earlier, the killings of children are way 
up in recent months.
    Mr. Forbes. And can you also speak, Mr. Seitz, that the 
data from the National Police of Guatemala, for example, shows 
the lowest level of violence now since 2004? Would you dispute 
those figures?
    Rev. Seitz. I am less familiar with the situation in 
Guatemala, but I do know that the number of people reporting--I 
am sorry, the UN agency that did a survey of children that were 
leaving, something like 400 children, reported that something 
like 60 percent had actionable claims for asylum.
    Mr. Forbes. Okay. And, Mr. Chairman, I would just end by 
saying that the biggest complaint I have heard today from those 
supporting the Administration is that the title of this hearing 
was wrong. We just had the representative from 16,500 border 
agents who say it is not wrong.
    And also we heard somebody say let's take a vote. Well, as 
I understood Mr. Judd's testimony earlier, he said we need to 
have catch and release policy go away, enforce the law, not 
grant special status, and increase our manpower, or protect our 
manpower shortage, and if we can get a law to that effect, I 
think all of us would love to vote on that today.
    And with that, Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    And the Chair asks unanimous consent that the document, the 
data from the National Police of Guatemala that shows the 
lowest level of homicide rates in that country since 2004.
    And without objection, that will be made a part of the 
record.*
---------------------------------------------------------------------------
    *The information referred to, the data from the National Police of 
Guatemala, is not reprinted in this hearing record but is on file with 
the Committee, and can be accessed at: http://www.plazapublica.com.gt/
content/diez-anos-de-muertes-violentas-en-guatemala.
---------------------------------------------------------------------------
    The Chair recognizes the gentlewoman from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you very much. And I 
would never underestimate a hearing that deals with the 
vulnerability of children.
    Let me associate myself, Bishop, and let me thank you for 
your service and commitment to humanitarian issues. I happen to 
represent Cardinal DiNardo, who is in the Houston-Galveston 
Council, who is in the 18th Congressional District in Houston, 
Texas. I hope you will tell him I said hello----
    Rev. Seitz. Glad to.
    Ms. Jackson Lee [continuing]. To him. I hope you work with 
him as well, and you know the compassion that he has.
    I think it is appropriate, and my Chairman and I and the 
Ranking Member, we work together to put on the record that we 
are long overdue for putting comprehensive immigration reform 
on the floor of the House and passing it and moving forward so 
that our good friends at ICE and our Border Patrol agents will 
have a roadmap that they can address.
    I want to just say on the record, and I will pose a 
question, that you said other Nations are watching, and our 
moral standing is at stake. I only have a short period of time, 
Bishop. Would you just quickly say what you mean in that?
    Rev. Seitz. Yes. Well, there are many other Nations, much 
less populous and much poorer than we are, that are accepting 
hundreds of thousands of refugees, people who are fleeing 
violence in their home countries, and our Nation has been on 
record for decades to say that you have a responsibility to 
receive these people who are fleeing the violence. When the 
violence, or rather, when the refugees come to our borders, it 
behooves us to act under the same principles that we have 
enunciated to them.
    Ms. Jackson Lee. I thank you so very much. In Jordan, for 
example, there are about a million Syrians that have come 
across the borders to Jordan.
    So let me go to Mr. Homan for a comment. I heard you say 
something about the laws changing, but the removal proceedings 
are still in place, that if you determine that there should be 
removal proceedings, there is a process under the law for you 
to proceed through the immigration courts, et cetera, and some 
of these families with children can be deported; is that not 
correct?
    Mr. Homan. Yes.
    Ms. Jackson Lee. And the children can be deported going 
through removal proceedings; is that not correct?
    Mr. Homan. Yes.
    Ms. Jackson Lee. And I would like to know, what ages, Mr. 
Vitiello, Mr. Judd, have you been seeing coming across the 
border; what is the range of ages?
    Mr. Vitiello. So we have children as young as five, and in 
the family units, younger than that.
    Ms. Jackson Lee. Yeah. So you have seen someone like this, 
of this age. I don't know if you can see it there. It is a baby 
sitting on a floor.
    Mr. Vitiello. Yes.
    Ms. Jackson Lee. So you have seen babies?
    Mr. Vitiello. We have.
    Ms. Jackson Lee. And this just happens to show children 
laying on floors. You have seen those circumstances, right?
    Mr. Vitiello. We have.
    Ms. Jackson Lee. All right. So, as a parent or being around 
children would not argue that this baby has the conscious of 
thought to apply for asylum or to not show up at a hearing; is 
that not correct?
    Mr. Vitiello. That would be correct.
    Ms. Jackson Lee. Okay. So we know that there is a wide, 
vast range of ages and I do want to say thank you, because I 
know that you have been extending yourselves, ICE and Border 
Patrol, in dealing with these children, so let me first of all 
say thank you for your service.
    But it is clear that the removal proceedings are still 
there and the President has not changed that, or the suggestion 
that it is the President's changing laws; they are still in 
place?
    Mr. Homan. Yes.
    Ms. Jackson Lee. All right. Thank you.
    Mr. Judd, the impression is you are against the 
Administration, you are against the President. Is that 
accurate?
    Mr. Judd. That is absolutely not correct.
    Ms. Jackson Lee. Can we----
    Mr. Judd. I am here testifying from a law enforcement 
perspective, and I have to give that perspective if I hope that 
there is going to be any positive change.
    Ms. Jackson Lee. And we welcome that. We want to engage 
you. The Senate has passed almost a $2 billion allotment for 
the child immigrants. We need to do the same. Would that 
resources, just generally speaking, and more resources for your 
agents over time, the better facilities, would that be helpful 
to you?
    Mr. Judd. Of course it would.
    Ms. Jackson Lee. All right. And the question of the law, I 
just want to be very clear, as my colleague said in 2002 we 
passed a law to provide for HHS assistance. Then we came 
forward in 2008, signed by President Bush, the idea of the 
responsibility for those who are human traffic and those who 
are smuggling.
    Is it not true that in the course of your work, Mr. 
Vitiello, maybe Mr. Homan, Mr. Judd, that you have seen human 
smugglers, meaning individuals who are smuggling, and human 
traffickers? Have you seen those individuals?
    Mr. Judd. Yes, ma'am.
    Ms. Jackson Lee. Would you venture to say that their 
character and integrity is not at any level equal to those who 
you would respect?
    Mr. Goodlatte. Time of the gentlewoman has expired. The 
gentleman can answer the question.
    Mr. Judd. Absolutely not.
    Ms. Jackson Lee. And would they say anything to people who 
are desperate?
    Chairman Goodlatte. The time of the gentlewoman has 
expired. Chair recognizes----
    Ms. Jackson Lee. And would they not say anything that the 
President's policy has changed?
    Mr. Goodlatte. The time of the gentlewoman----
    Ms. Jackson Lee. And they have not changed.
    Mr. Goodlatte. The time of the gentlewoman has----
    Ms. Jackson Lee. The law is the same, and it is ridiculous 
for this Committee to even suggest that. The law is the same.
    Mr. Goodlatte. Time of the gentlewoman has expired. The 
Chair recognize sthe gentleman from Iowa.
    Ms. Jackson Lee. I yield back.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Goodlatte. The time of the gentlewoman was expired. 
There was no time to yield back. The gentleman from Iowa is 
recognized for 5 minutes.
    Mr. King. Thank you, Mr. Chairman.
    I thank the witnesses for your testimony. And I'm looking 
at an article that is printed 25th, June 2014, El Periodico, 
which is a Guatemalan newspaper, it's an AP story, in Spanish. 
It says essentially, in Spanish and English, that two-thirds of 
the children that are unaccompanied minors coming to the United 
States are coming from either Guatemala, El Salvador, Honduras. 
I think we're consistent with that in our testimony that I 
hear, or at least relatively close; that only 12 percent come 
from Mexico, although the rest of them come through Mexico, 
kind of like our drugs, from or through Mexico; that 80 percent 
are male; and 83 percent are over 14 but unaccompanied minors, 
that means 15, 16 or 17 years old.
    I would say, first, Mr. Vitiello, is that consistent with 
what you have observed on the border?
    Mr. Vitiello. That is consistent.
    Mr. King. And Mr. Crane?
    Mr. Crane. I don't have that type of data, sir.
    Mr. King. I didn't actually guess that's the case.
    And also is that the case for Mr. Judd?
    Mr. Judd. From what I've been told from the agents, yes, 
that is correct.
    Mr. King. Thank you. And I'd ask unanimous consent to 
introduce this article into the record.
    Mr. Goodlatte. Without objection, the article will be made 
a part of the record.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. King. Thank you, Mr. Chairman.
    And I looked at some other data here, and as I roll down 
through this and listen to the testimony about the fear of 
violence and that that being at least proposed as the primary 
reason that these young people are leaving their countries, and 
so I began to check this out, and I see that 8 of the top 10 
most violent countries in the world are Central America or 
northern South America.
    And among these countries, and I'll read down through the 
list from 1 to 10, Honduras the most violent, as has been 
testified here, 90.4 murders per 100,000; Venezuela is second, 
53.7; Belize third, 44.7; El Salvador next with 41.2 murders, 
homicides per 100,000; then Guatemala; then Jamaica; Swaziland 
in Africa; then Saint Kitts; then South Africa; then Colombia 
tenth. These are very shocking numbers and that would tell us 
all that the most violent countries in the world, 8 of 10 of 
them are to our southern border.
    United States homicide rate 6.5 per 100,000. Mexico is 
18.2, roughly triple that of the United States. Both those 
numbers have gone up over the last 5 years. And yet going south 
it gets far more dangerous. But I wonder, what can I compare 
that to? Well, Venezuela, 53.7, number two most violent country 
in the world, has to look up to Detroit. Violent homicide rate 
in Detroit 54.6, compared to Venezuela's 53.7. The rest of the 
countries that I read range all the way down from 53.7 down to 
Colombia at 30.8.
    So if we're going to move kids into America with the idea 
that we're going to get them away from violence, we at least 
have to keep them out of Detroit. And I don't see people that 
are exiting Detroit because the city is that dangerous. Some 
probably do. But we should put this in perspective.
    And I'd also make the point that these children that are 
coming here, these thousands of unaccompanied minors that are 
coming here, there was a child in one of my towns that was 
found wandering on the street in a neighborhood, several blocks 
away from her mother, who was sleeping during the day because 
she was working at night, to her credit, but she nodded off and 
the child got out and walked away.
    Our Department of Human Services picked this child up, 
referred by a resident, identified the mother, and said to her, 
if this happens again, you're in danger of having your child 
taken away from you. Because we don't tolerate child 
endangerment or child abandonment in the United States of 
America. We don't tolerate it in Iowa; we don't tolerate it in 
America.
    Yet, we're watching tens of thousands of kids that are 
being abandoned into the United States, pushed across thousands 
of miles of Mexico in some of the most dangerous terrain and 
the dangerous drug and cartel violence that there is, and 
somehow we as a country are reuniting these families by 
bringing these children, under force of law, violating the law 
and completing the crime and putting these children into 
households where there's an illegal mom or an illegal dad or 
both.
    No country in its right mind would repatriate families who 
have abandoned their children and pushed them across 1,000 
miles of Mexico and handed them over to the Border Patrol and 
said hand them over to ICE, and now HHS is going to deliver 
them into these households and not enforce the law. This is so 
appalling to me.
    But I would ask, Mr. Judd, with this concept that I have 
laid out here, how do we respond to this if we're going to be a 
Nation of laws and have a rule of law?
    Mr. Judd. Well, what we'd have to do is we would have to 
take the parents into custody when they take custody of the 
children, but we're not given that opportunity because we give 
them over to HHS and then HHS gives them over to this new 
escort service who then flies them.
    In fact, my coworker that's here with me today sat next to 
an El Salvadoran 8 year old on a plane with somebody from this 
new service, and when they got off the plane here in 
Washington, D.C., that child was reunited with the parent. And 
that child was reunited with the parent, and it wasn't done 
under any law enforcement supervision or oversight whatsoever.
    Mr. Goodlatte. Time of the gentleman has expired.
    Mr. King. Unanimous consent request, Mr. Chairman.
    Mr. Gutierrez. I object. I object. I object.
    Mr. Goodlatte. I think there's some unanimous consent 
requests on both sides.
    Ms. Lofgren. I have a unanimous consent request.
    Mr. Goodlatte. The gentleman from Georgia is recognized for 
5 minutes.
    Mr. King. Mr. Chairman, parliamentary inquiry.
    Mr. Goodlatte. Gentleman may state his parliamentary 
inquiry.
    Mr. King. My inquiry is, is there a unanimous consent 
required in order to introduce a document into the record in 
this Committee?
    Mr. Goodlatte. We'll consult the parliamentarian 
momentarily and come back to that issue, since I know there's a 
desire to have more documents placed into the record. But in 
the meantime, we'll turn to the gentleman from Georgia for his 
questions.
    Mr. Johnson. Thank you, Mr. Chairman.
    When I first heard about this increase in the numbers of 
children, unaccompanied children appearing at our borders, my 
first thought was, what is it that is driving that kind of 
flow, a spectacular rise in the numbers of children? What is 
driving that? What would cause a parent, because all parents 
love their children regardless of where they are, El Salvador, 
Guatemala, Honduras, America, Virginia, which happens to have a 
population of 8.6 million people, Virginia, with 42,000 square 
miles, with a median household income of $61,000. Those people 
love their children there.
    And Guatemala, 8.2 million people, same as Virginia, about 
43,000 square miles, as opposed to 42,000 for Virginia, so 
about the same size, but a per capita income of $4,345, but 
those people in Guatemala, they love their children. And what 
would cause someone to let their children be unaccompanied 
except by a, whatever we call them, coyotes and whatnot, how 
many of those youths actually when they leave home make it to 
the border of the U.S.? Is anybody concerned about that? I am.
    But I'm concerned really about what would drive a parent to 
put their child in danger like that? It has to be more than 
just the President promising that you may be able to--I don't 
know what the argument is that's being raised. It's ridiculous 
to think that people would put their children at risk. But I 
would tell you, even if a parent in Virginia had 70 children a 
month being murdered in that State, they would look to relocate 
those children somewhere if they could not take them 
themselves.
    And in Honduras, which has the highest homicide rate in the 
world, over the last 3 years 70 children were murdered monthly. 
And there were 102 children murdered last month, the month of 
May, in Honduras. And in this country of Guatemala, 99.5 
murders per week. So you take a place like Virginia and you 
impose the same conditions in Virginia and you trap the parents 
there and the parents that love their children, want to see 
them grow up, they're going to get them out of there.
    And so what is causing that? What is causing that? It's got 
to be something more than the President offering somebody 
something. It's probably the war on drugs, with the 
militarization of the police forces, with the MS-13 gang, 
54,000 MS-13 and 18th Street gang members in El Salvador, 
Guatemala, and Honduras. Since 2005, murders of men and boys 
increased 292 percent while murders of women and girls 
increased 364 percent in that region. Children with parents in 
the U.S. are targeted for gang extortion because they're 
perceived to be receiving remittances.
    I mean, there is just so much violence down there that we 
cannot relate to it here, but if we were in the same situation 
as those parents are down there, we would be trying to get our 
children here.
    So it's really not a matter of illegal immigration, it is a 
humanitarian disaster with children, not parents but children, 
babies. It's a humanitarian disaster, and we should be about 
trying to solve the problem as opposed to simply looking for 
fodder to blame the President for something else.
    Mr. Goodlatte. Time of the gentleman has expired.
    Mr. King. Mr. Chairman?
    Mr. Goodlatte. The gentleman from Iowa is recognized.
    Mr. King. I seek to be recognized for a unanimous consent 
request.
    Mr. Goodlatte. Gentleman may state his request.
    Mr. King. Mr. Chairman, I have a case here, a criminal 
case, it's Mirtha Veronica Nava-Martinez, United States versus 
her, dated December 13, 2013, Judge Andrew Hanen, and an 
accompanying FOX News article that I'd ask unanimous consent to 
introduce into the record.
    Mr. Goodlatte. Are there additional unanimous consent 
requests?
    Ms. Lofgren. Mr. Chairman, I have some unanimous consent 
requests.
    Mr. Goodlatte. The gentlewoman will state her unanimous 
consent request.
    Ms. Lofgren. I would like to enter into the record a 
statement from the Hebrew Immigrant Aid Society; a statement 
from the Faith Alliance Against Slavery and Trafficking, a 
paper on the nexus between human trafficking and immigration; a 
statement from the American Bar Association; a statement from 
Kids in Need of Defense; a statement from the U.S. Committee 
for Refugees and Immigrants; a statement from the Safe Passage 
Project; report on ``Mission to Central America: The Flight of 
Unaccompanied Children to the United States,'' by the Catholic 
Bishops;** ``Forced From Home: The Lost Boys and Girls of 
Central America,'' from the Women's Refugee Commission;*** 
``Considerations for Hondurans in the American Asylum 
Process,'' from the Jesuit Conference of the United States;**** 
a letter from the California Latino Legislative Caucus; as well 
as data from the U.N. Office on Drugs and Crimes for year 2000 
to 2012; and the U.S. Department of State report on Guatemala 
pointing out that there has been a significant increase in 
violence and that the police in Guatemala who were earlier 
referenced are part of the violence problem in Guatemala.*****
---------------------------------------------------------------------------
    **The information referred to, report on ``Mission to Central 
America: The Flight of Unaccompanied Children to the United States,'' 
by the Catholic Bishops, is not reprintd in this hearing record but is 
available at www.usccb.org/about/migration-policy/upload/Mission-To-
Central-America-FINAL-2.pdf.
    ***The information referred to, ``Forced From Home: The Lost Boys 
and Girls of Central America,'' from the Women's Refugee Commission, is 
not reprinted in this hearing record but is available at http://
womensrefugeecommission.org/forced-from-home-press-kit.
    ****The information referred to, ``Considerations for Hondurans in 
the American Asylum Process,'' from the Jesuit Conference of the United 
States, is not reprinted in this hearing record but is available at 
http://www.jesuit.org/Assets/Publications/File/Hondurans_asylum_
report_FINAL.pdf.
    *****The information referred to, a U.S. Department of State report 
on Guatemala pointing out that there has been a significant increase in 
violence and that the police in Guatemala who were earlier referenced 
are part of the violence problem in Guatemala, is not reprinted in this 
hearing record but is available at http://www.state.gov/documents/
organization/220657.pdf.
---------------------------------------------------------------------------
    Mr. Goodlatte. What purpose does the gentlewoman from Texas 
seek recognition?
    Ms. Jackson Lee. Mr. Chairman, I would ask unanimous 
consent to put into the record a letter from First Focus 
Campaign for Children, the president, Bruce Lesley, that argues 
against eliminating DACA. And I'd like to submit into the 
record a statement dated June 15, 2012, from the Department of 
Homeland Security on DACA indicating that any eligible person 
for DACA has to continuously reside in the United States for at 
least 5 years preceding the date of their application, 
preceding the date of this memorandum, which is June 15, 2012. 
I ask unanimous consent to put both statements into the record.
    Mr. Goodlatte. Without objection----
    Mr. Gutierrez. Mr. Chairman?
    Mr. Goodlatte. For what purpose does the gentleman from 
Illinois seek recognition?
    Mr. Gutierrez. I ask unanimous consent that the following 
articles be included in the record. An article of February 19, 
2013, ``Nearly 200 Guatemalan Police Removed for Criminal Ties. 
Report Puts Guatemalan National Police Under the Gun;'' March 
26, 2014, ``Renewing Police Reform Efforts in Guatemala;'' 
Dated April 2014, ``Guatemalan Police Force Adds Over 2,000 New 
Officers Given Police Corruption;'' and ``Former Guatemalan 
Police Chief Found Guilty for Killings,'' and that one is June 
6.
    Mr. Goodlatte. Without objection, all these documents will 
be made part of the record.
    [The material submitted by Mr. King follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    [The material submitted by Ms. Lofgren follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>do
                                not need 
                               F3(?????) deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    [The material submitted by Ms. Jackson Lee follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    [The material submitted by Mr. Gutierrez follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Gutierrez. I want to make sure we know all about the 
Guatemalan police.
    Mr. Goodlatte. For what purpose does the gentleman from 
Texas seek recognition? Oh, actually, the gentleman from Utah. 
The gentleman from Utah is recognized for 5 minutes.
    Mr. Chaffetz. Thank the Chairman.
    Mr. Goodlatte. Moving right along.
    Mr. Chaffetz. Thank you all for being here. For those of 
you from the Border Patrol and ICE, question for you. Are you 
aware of any internal assessments regarding why these children 
are coming north in the way they are? Is there any internal 
assessment that you have seen within your organizations?
    Mr. Vitiello. There are several reports from varying 
locations about, you know, the intelligence and surveys of----
    Mr. Chaffetz. Our Committee would like to have a copy of 
those.
    Mr. Homan, are you aware of any?
    Mr. Homan. Yes, I'm aware of external and internal 
intelligence reports.
    Mr. Chaffetz. And what do they say?
    Mr. Homan. Pardon me?
    Mr. Chaffetz. What do they say?
    Mr. Homan. They talk about various factors, to include----
    Mr. Chaffetz. I guess, in the essence of time, could you 
please provide those to this Committee?
    Mr. Homan. Yes, sir.
    Mr. Chaffetz. Thank you.
    Mr. Judd, when these unaccompanied minors are coming 
across, how are they communicating who they are and where they 
want to go?
    Mr. Judd. When they come to the processing center, 
obviously, if they're 5 years old or too young, that's a little 
bit difficult, we have to turn them over to HHS. But when 
they're older than 14 years old, they tell us, they give us 
numbers, we allow them to call the parents or the relatives or 
whomever, and they tell us exactly where they want to go.
    Mr. Chaffetz. Some of them have, I've heard, papers in 
their pockets with an address or a location?
    Mr. Judd. Sometimes.
    Mr. Chaffetz. What sort of vetting is done to figure out 
the authenticity of the relationships?
    Mr. Judd. We can't. There's no vetting that we can do.
    Mr. Chaffetz. So what happens to them? Do we put them on a 
plane? Put them on a bus? What do we do?
    Mr. Judd. Yes, sir. We process them with the information 
that they give us. We take the information at face value. Then 
we turn them over to ERO, ERO then turns them over to HHS and 
so on and so forth.
    Mr. Chaffetz. But these are ICE escorts, correct? They're 
hired under the ICE. Is that right, Mr. Crane?
    Mr. Crane. Yes, sir. They're turned over from CBP to ICE, 
and then ICE officers fly them to placement that's directed by 
ORR.
    Mr. Chaffetz. And when these escorts get to the 
destination, what sort of vetting of the person do they 
actually do?
    Mr. Crane. On our end, we don't. We turn them over to ORR. 
Prior to that, typically, we just try to verify addresses.
    Mr. Chaffetz. When you say verify address, that that 
address is a real address?
    Mr. Crane. That it is a real address and that there's 
someone there that's going to verify that they're going to 
receive the child.
    Mr. Chaffetz. But in terms of vetting who they're giving, I 
mean, you could be giving them to a drug cartel, you could be 
giving them to a gang, could be a sex trafficker. You just say, 
are you you? Is that all you say?
    Mr. Crane. There's no verification of really who that 
person is.
    Mr. Chaffetz. My daughter flew from Salt Lake City to 
Phoenix. She happens to be 13 years old. She knows what she's 
doing. She speaks great English. We had to provide to Delta the 
telephone number, a Social Security Number. They had to provide 
a driver's license when they approach them. You're telling me 
that we're taking 13-year-old kids, 12-year-old kids, 5-year-
old kids, we're taking them and we are, with zero vetting, no 
vetting, no questions asked, and we're handing them over to 
somebody in the United States? That's what's happening?
    Ms. Lofgren. Will the gentleman yield?
    Mr. Chaffetz. No. I'm asking these people.
    Ms. Lofgren. Well, because they don't know. They're not in 
charge of it.
    Mr. Chaffetz. I'm asking the people that are here on this 
panel. I ask unanimous consent to put another 30 seconds back 
on the clock, please.
    Mr. Goodlatte. Without objection, the gentleman will be 
recognized for 30 seconds additional.
    Mr. Chaffetz. Thank you.
    The people here on this panel, are the four of you that are 
involved in ICE and the Border Patrol, do we do any vetting 
whatsoever of who we turn these minors over to?
    Mr. Homan.
    Mr. Homan. I'll defer to Border Patrol on what type of 
vetting they do during the initial intake and processing. When 
ICE takes these children and hands them over to HHS, HHS does 
all the vetting of where these children are going to, they do 
background investigations on the sponsors, and they do the 
vetting. That's an HHS responsibility. Before that child is 
placed with a family or a sponsor, HHS would do a background 
investigation.
    Mr. Chaffetz. So what sort of vetting do you do in the pre-
part, in the beginning?
    Mr. Vitiello. So during the arrest and the booking cycle, 
law enforcement professionals, Border Patrol agents interview 
the individual themselves. Or if it's part of a family unit, 
then they'll interview the parents to elicit the information 
about their destination in the United States, the manner in 
which they entered, where they're from, what country they're 
coming from, et cetera.
    Mr. Chaffetz. Mr. Vitiello, what percentage of the border 
do you have under operational control at this point?
    Mr. Vitiello. I don't have that information in front of me.
    Mr. Chaffetz. Is it less than 10 percent as it was last 
time it was assessed?
    Mr. Vitiello. I don't have that information in front of me.
    Mr. Chaffetz. Would it be inaccurate to say that it's 
changed since then?
    Mr. Vitiello. The border changes every day.
    Mr. Chaffetz. How do you say yesterday, how do testify 
yesterday that you have an adequate supply of personnel? Those 
are the words that you used.
    And then, Mr. Judd, I would appreciate your perspective on 
this, as well.
    Mr. Vitiello. I appreciate you bringing that up. I could 
have been a bit more precise in my remarks yesterday.
    Mr. Chaffetz. You were fairly precise. I mean, you said 
``you were adequately staffed.'' You went on to say that you 
were adequately or better staffed at the same time than you 
were last year.
    Mr. Vitiello. I didn't want people to imply the fact that 
we're not concerned about this problem. When we visited with 
the Secretary we were told by the folks on the ground there 
that the issue of large numbers of family units and these 
children are entering in a specific area. My remarks yesterday 
were designed to inform everyone that the deployments outside 
of those two zones are as well staffed as they were last year 
or better staffed.
    Mr. Goodlatte. Time of the gentleman has expired, but the 
gentleman, Mr. Judd, will be allowed to answer the question.
    Mr. Judd. We are adequately staffed to process them, but we 
have to strip the line to do it. So we create holes on the 
line. So, yes, we're able to process these people. There's no 
doubt about that. But the actual border takes a hit because we 
have to take people out of the field to do that processing.
    Mr. Goodlatte. The Chair recognizes the gentlewoman from 
California, Ms. Chu, for 5 minutes.
    Ms. Chu. Well, first of all, I'd have to say, I heard Mr. 
Judd say that these children are released to these relatives 
and then they disappear. And I don't know how you could say 
such a thing when once they leave your jurisdiction, you don't 
know what the actual result is. You don't know what the end 
result is for these children.
    Mr. Judd. We can track that through--because what happens 
is we have to assign what's called an A number, an alien 
number, and that can be tracked, and you can see what court 
dates they have, everything that's associated with it, and it 
will actually show if they showed up for their hearing. And 
from what's been reported to me from intelligence is that they 
don't show up to their hearings. In fact, the bishop in his 
written testimony, on page 11, said that they don't show up to 
their hearings. If you don't mind, I'll quote it.
    Ms. Chu. Well, let me just keep on going.
    Mr. Judd. Okay. Sure.
    Ms. Chu. Just 2 weeks ago, I visited the unaccompanied 
minors being housed at the naval base in Ventura County, and I 
did see more than 175 children who had been transferred from 
the border. Thank goodness, the facility was clean and safe. 
But I came to understand after my visit to the shelter that 
there are a lot of misconceptions about what is going on, and I 
came to understand that these children are not given a free 
pass to enter our country.
    And just like this hearing is a misnomer, ``An 
Administration Made Disaster,'' also this term ``catch-and-
release'' is a misnomer because these children are not just 
released into society. They, first of all, are released to a 
relative, but that's because of a law that dates back to 17 
years ago, and that was reinforced by two laws that were signed 
then by President Bush. So that, yes, they are with relatives.
    But then they have to have a notice to appear, they have to 
go through a court hearing, and they have to apply if they are 
going to stay here, and they can only stay here if they qualify 
for asylum or a special juvenile status visa or a U visa for 
victims of violent crimes. And so nothing has changed in the 
law. There is nothing that has changed with regard to the Obama 
administration. All these laws were done before the Obama 
administration.
    But what we do have is a broken immigration system. We have 
a court system that has not been in operation because of the 
lack of immigration judges, the huge backlog. And so all these 
children are being held up with regard to their final 
dispensation.
    And actually there's something else I want to ask about the 
situation to Mr. Homan, because it is very disturbing to me 
that children as young as 3 or 4 years old have to appear in 
court without counsel against an experienced ICE trial 
attorney. They are left alone to present a defense to their 
removal, making it nearly impossible for them to assert a claim 
for relief even if they do qualify.
    And, in fact, just 2 days ago my colleagues and I, led by 
Mr. Jeffries and several other Members of the Committee, 
introduced the Vulnerable Immigrant Voice Act to provide for 
attorneys for unaccompanied minors and individuals with mental 
disabilities. I believe that this is actually cost effective 
because detained individuals who have information regarding 
their rights prior to their first hearing spend an average 11 
fewer days in detention and that means more than $164 a day for 
every individual that is detained, which adds up to a lot of 
money.
    So, Mr. Homan, what procedures are currently being put in 
place to ensure that unaccompanied minors understand the 
immigration proceedings that they're being placed into and have 
legal assistance to apply for the relief that they may be 
eligible for?
    Mr. Homan. When the child goes before an immigration judge, 
like I said, we looked at in the last 5 years for every 
unaccompanied child that we filed a case with EOIR, 87 percent 
of them are still in proceedings, which, again, as I testified 
earlier, was lack of immigration judges, first of all. So these 
hearings aren't being heard for years. But there's a lot of 
continuances with unaccompanied children.
    When they're placed with a sponsor or family member, they 
certainly can attend a hearing and help the child through. I'm 
aware of, our Office of Principal Legal Advisor thinks that 
supplying an attorney to an unaccompanied child may benefit and 
make the system move faster. So I would have to defer to DOJ, 
the immigration judges, on how those hearings are conducted. 
I'm sure they're conducted differently in every part of the 
country.
    Mr. Goodlatte. Time of the gentlewoman has expired.
    Chair recognizes the gentleman from Texas, Mr. Gohmert, for 
5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    AND I know it's been a long day for all of us, but I 
appreciate your patience because this is important. Having 
spent the weekend down at the border, McAllen, Mission, all 
along the border, along the Rio Grande, on public dirt, gravel 
roads, down miles from a hard top road, seeing dozens of people 
being processed out in the public area on dirt roads in the 
middle of the night, I've got a better sense of this.
    The issue of a free pass came up in a hearing in which Pete 
King from New York was asking Secretary Johnson, and Pete King 
said, but if I were a parent in Guatemala, wouldn't I see that 
as being a free pass? I mean, a child, a 5 year old getting an 
order to show up in immigration court, you know, are you going 
to actually deport that child? You know, to me, that's a free 
pass, from their perspective.
    Secretary Johnson said, Congressman, I don't see it as a 
free pass, particularly given the danger of migrating over 
1,000 miles through Mexico into the United States, especially 
now in the months of July and August that we're facing. A lot 
of these kids stow away lay on top of freight trains. It's 
exceedingly dangerous.
    And so he's saying, because of the danger to get here, it's 
not considered by Homeland Security as a free pass. But as to 
the child, once they enter the United States, it's a free pass. 
And what is occurring by this Administration luring these 
children into America by the promise of a free pass once they 
get here, there are children that are suffering and being hurt, 
being lured here to their detriment.
    Now, if they get here successfully, that's a different 
story. But having looked at hundreds and hundreds of people 
lying on a concrete floor this weekend in McAllen, Texas, in 
the sally port because there's nowhere else to put them, and I 
ask about, well, I hear there's 18 cases of scabies here. Where 
are they? Oh, you see the little red crime scene tape over 
here, that's the best we can do because Health and Human 
Services won't come pick up these people in a timely manner.
    So they're lying here on a concrete floor, and those 18 in 
that little area behind that red crime scene tape are our 
scabies cases. We're still looking for all the lice cases and 
the other cases, the flu cases. And I didn't get this from the 
Federal people, but from Texas folks that just sent 2,000 doses 
of H1N1 vaccine to Lackland Air Force Base. They say there's a 
case of H1N1 flu at Lackland.
    Does anybody know for sure that that is not true, or do you 
know that we definitely have at least one case of H1N1?
    Mr. Vitiello. When we were there last Friday they did 
confirm a single case of H1N1.
    Mr. Gohmert. Right. And are you familiar with the 
incubation period? I understand it can be 1 to 7 days before it 
manifests itself.
    Mr. Vitiello. I spoke to the doc about that, but I don't 
know the particulars.
    Mr. Gohmert. And listen, I appreciate, Mr. Vitiello, your 
commendation of FEMA and these other Federal agencies, but the 
fact is, in 2008, when the Democrat-controlled House and Senate 
passed a bill that made children the responsibility of Health 
and Human Services, which is also trying to take over all our 
health care now, so they seem to be kind of busy, but when that 
passed and was signed into law by President Bush, we really 
tied the hands about Border Patrol and our ICE agents because, 
as I was seeing this weekend, you've got hundreds of kids and 
you've got to wait on HHS to come get them.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Gohmert. No, I wouldn't. My time is limited, and I 
would like that addressed.
    Let me ask it this way: If Border Patrol had the 
responsibility of the children then you could move without 
having to wait for HHS, correct?
    Mr. Vitiello. Well, there's a couple of different pieces of 
the government that have to do this. Right now, under the law, 
the responsibility is to move folks into HHS. Their resources 
are building with the help of the interagency, with the help of 
DOD and FEMA, et cetera.
    Mr. Gohmert. Okay. Well, my time is running out. Let me 
just indicate that of all of these people that I watched in a 
public area in the dark of night being interviewed, they were 
all very honest, very candid, not one of them said they were 
fleeing because of violence. They were saying, well, the mother 
for these two is in Miami, had been there for 4 years, has a 
good job there. So now that we know the children can come and 
not have to go home, we want to get them with their mother in 
Miami. And these three over here, their fathers are in North 
Carolina and have a good job. Now that we know they can stay, 
get a good education, we want to get them with their fathers in 
North Carolina, all of them there illegally.
    Folks, we have sent the message to the world that we're 
open to anybody that wants to come in. And I'm telling you, we 
are not doing our job as a Congress----
    Ms. Lofgren. Mr. Chairman?
    Mr. Goodlatte. Time of the gentleman----
    Mr. Gohmert [continuing]. And the Federal Government is not 
doing their job in protecting us from those people that are 
coming in.
    Mr. Goodlatte. Time of the gentleman has expired.
    Ms. Lofgren. I have a unanimous consent request.
    Mr. Goodlatte. The gentlewoman will state her unanimous 
consent request.
    Ms. Lofgren. I would like to place into the record the 
Homeland Security Act of 2002 that was the act that transferred 
this responsibility to Health and Human Services during the 
Republican majority and signed into law by President Bush.
    Mr. Goodlatte. There may be a limitation on the number of 
pages that can be submitted into the record. But if there is, 
we will check.******
---------------------------------------------------------------------------
    ******The information referred to, the Homeland Security Act of 
2002, is not reprinted in this hearing record but is on file with the 
Committee, and can be accessed at http://www.dhs.gov/xlibrary/assets/
hr_5005_enr.pdf.
---------------------------------------------------------------------------
    Ms. Lofgren. If the pages work, I would caveat the request 
with that.
    Mr. Gohmert. And I would ask unanimous consent to submit 
the bill that changed that act in 2008, modified that.
    Mr. Goodlatte. Without objection, those documents that meet 
the size conditions will be made a part of the record.*******
---------------------------------------------------------------------------
    *******The information referred to, the bill that changed that act 
in 2008, is not reprinted in this hearing record but is on file with 
the Committee, and can be accessed at http://www.gpo.gov/fdsys/pkg/
PLAW-110publ457/pdf/PLAW-110publ457.pdf.
---------------------------------------------------------------------------
    And the Chair recognizes the gentleman from Florida, Mr. 
Deutch, for 5 minutes.
    Mr. Deutch. Thanks, Mr. Chairman.
    Mr. Chairman, it's estimated this year more than 60,000 
children will cross the U.S.-Mexican border without parents or 
guardians. Some estimates indicate the migration of 
unaccompanied children across the border could be as high as 
90,000 this year, 120,000 in 2015. It's a tenfold jump from the 
previous year.
    Now, some of my colleagues, some of my Republican 
colleagues on this Committee are suggesting that they're here 
because of the, as we just heard, the free pass that they know 
that they can get if they simply arrive here; that they're 
coming here, they're trying to come to the United States due to 
the Administration's immigration policies.
    But as we've heard all day, and I'm sorry that I've not 
been able to be in the hearing the entire time, and I 
appreciate the witnesses very much for your being here, but as 
we've heard, these unaccompanied children are embarking on what 
are very dangerous journeys, of hundreds of miles, to escape 
the violence in their home countries of El Salvador, Honduras, 
and Guatemala. Bishop, you've spoken to this extensively today.
    Honduras is the homicide capital of the world, with young 
boys having a 1-in-300 chance of being murdered. In 2013, a 
Honduran woman was killed every 15 minutes. In El Salvador, 174 
people were murdered in May of 2014; a year later that number 
climbed to 356 in May. And in Guatemala, which is suffering 
from the spillover of Mexican drug cartel violence, 98 percent 
of crimes go unprosecuted due to fear of retaliation.
    This extraordinary violence driven by organized gangs and 
drug cartels, as well as lack of economic opportunity, are some 
of the reasons that unaccompanied minors are making what is an 
extremely dangerous journey across Mexico to the United States. 
According to a recent study issued by the U.N. High 
Commissioner on Refugees, 58 percent of unaccompanied children 
crossing into the U.S. could raise potential international 
protection needs; 78 percent of the total number of 
unaccompanied children fleeing from El Salvador will qualify 
for international protection, 40 percent from Guatemala, 57 
from Honduras, and 64 percent from Mexico.
    This is a humanitarian crisis. And as a global human rights 
leader, if that's a role that we're to play in this country, if 
we take that responsibility seriously, our credibility is on 
the line to ensure that unaccompanied children fleeing violence 
in their home country are treated humanely and with fairness 
when they enter the United States.
    Now, I also serve on the Foreign Affairs Committee, and I 
meet regularly with representatives from Jordan, from Turkey, 
and from Lebanon. Now, according to the U.N. High Commissioner 
for Refugees, these three countries have taken in nearly 2.5 
million Syrian refugees since the conflict began. Moreover, 
it's been reported that Germany has offered to resettled 
approximately 25,000 Syrian refugees.
    These countries are continuing to be inundated by hundreds 
of thousands, if not millions of refugees fleeing the mass 
slaughter in Syria, and we support their efforts and we praise 
these countries for keeping their borders open to people 
fleeing violence in their home countries who are seeking 
safety. We praise them for doing that.
    As we urge other countries around the world to keep their 
borders open to people fleeing violence in their home 
countries, especially children fleeing violence in their home 
countries, it's incumbent upon us to treat people fairly and 
humanely who are fleeing extreme violence in Central America 
and seeking safety in the United States, if we're to be taken 
seriously at all when we speak out in support of human rights.
    Now, Bishop, I have a question for you. Tell me whether you 
believe the United States as a global human rights leader has 
an obligation to treat unaccompanied children seeking safety in 
our country fairly and humanely.
    Rev. Seitz. I certainly believe that we have a 
responsibility and the world is watching us. They see us as a 
leader in human rights. And so how we deal with this much 
smaller population of people that are showing up at our borders 
I think will be looked at with a great deal of interest.
    Mr. Deutch. Mr. Vitiello, what's the age of the 
unaccompanied children that you see crossing the border?
    Mr. Vitiello. By definition, it's anyone that's under 17.
    Mr. Deutch. And I understand that. Do you have a sense how 
many of them are under 13, under 14?
    Mr. Vitiello. We could get back to you on sort of the 
specific breakdown of the demographics, but it's generally the 
older age, you know, 14 through 17. But we've seen them in each 
of the categories.
    Mr. Deutch. And do these children come across the border 
and tell you--do you have a sense, any of you, how long the 
journey is walking from El Salvador or walking from Honduras or 
Guatemala to the United States?
    Mr. Vitiello. Not specifically, but it's got to be days. 
Days, weeks.
    Mr. Deutch. Bishop, do they ever walk, or how do they get 
there?
    Mr. Goodlatte. Gentleman's time has expired, but the 
witness will be allowed to answer the question.
    Rev. Seitz. I don't think many of them walk all the way. 
They walk part of the way. Many of them will catch the train 
that's referred to as La Bestia, and some of them, if they have 
enough money, they will get bus tickets to take them part way.
    Mr. Deutch. Thank you.
    Mr. Goodlatte. The time of the gentleman has expired.
    The gentleman from Idaho, Mr. Labrador, is recognized for 5 
minutes.
    Mr. Labrador. Thank you very much.
    Thank you, all of you, for being here.
    Bishop, do you know how many refugees we accepted in the 
United States last year?
    Rev. Seitz. I don't have those numbers.
    Mr. Labrador. That number is 70,000. So I think the United 
States has done a pretty good effort of reaching out to all 
communities and accepting people. Do you know how many 
immigrants we accepted in the United States last year?
    Rev. Seitz. Do not.
    Mr. Labrador. It's in the millions. So for anybody to 
suggest that the United States is not accepting people from 
other countries, I would really differ with you, and especially 
on a refugee status.
    Mr. Judd, Mr. Crane, I've heard a lot of reasons why this 
is happening. If you look at this chart to my right and to your 
left, the numbers started increasing in fiscal year 2012.
    [Chart]
    Mr. Labrador. So the law changed in fiscal year 2008, in 
fiscal year 2009 you had about the same number as fiscal year 
2010 and fiscal year 2011, and then all of a sudden the numbers 
started increasing by 124 percent, then 305 percent, and then 
this year we're estimating that there's going to be an increase 
of 1,300 percent.
    What has changed in those years in the country conditions 
in Honduras, El Salvador, and Guatemala? Do you know?
    Mr. Crane. I do not know, sir.
    Mr. Labrador. Is there any evidence that country 
conditions, because we've heard a lot of bad things about those 
countries from the other side, and I agree that the conditions 
are not great. But has anything significantly changed in the 
last 3 years in those three countries? Do you know, Mr. Judd?
    Mr. Judd. I couldn't answer that. I have no idea.
    Mr. Labrador. Now, is there any evidence that anything has 
changed in those countries, overwhelmingly, that today the 
police is more corrupt than it was 3 years ago? Do we have any 
evidence of that? Mr. Vitiello, Mr. Homan, do we have any 
evidence of that?
    Mr. Vitiello. Nothing specific.
    Mr. Labrador. So we believe that the conditions are about 
the same as they were in fiscal year 2009, fiscal year 2010, 
and fiscal year 2011, do we not?
    Mr. Vitiello. I'm just not an expert on what is happening 
in those locations. I've synthesized the reports that we've 
developed, that have been developed by our agents in the field, 
and there are four major factors that are----
    Mr. Labrador. And what are those four major factors, if you 
could say, really quickly?
    Mr. Vitiello. So it's the violence, it's the economic 
conditions or the lack of opportunity, it's the failed, you 
know, services, rule of law, et cetera. And there is open-
source reporting, and we have our own reporting that say that 
people are under the belief, whether it's been promoted by 
smugglers or others, that there is some kind of benefit to be 
gained.
    Mr. Labrador. But those first three factors are not any 
different today than they were in fiscal year 2008. Do you have 
any evidence that they are?
    Mr. Vitiello. I don't know the difference.
    Mr. Labrador. And I would submit to you that they're not. 
They have always been corrupt countries. They have always had 
corrupt police. And the thing that is changing is your number 
four factor, which is that they now believe that they can 
remain in the United States.
    Mr. Crane and Mr. Judd, when you talk to your agents, what 
are they telling you? What are they saying that these children 
are saying? Why are they coming to the United States?
    Mr. Judd. Again, our agents are required to interview these 
individuals, and the biggest report that we're getting is that 
they're coming here because they can stay.
    Mr. Labrador. Because they can stay. And I find it 
outrageous that anyone would say that things have changed 
dramatically in any of these three countries, and I find it 
outrageous that nobody understands, it seems on the other side, 
that inviting and saying that we are going to actually allow 
people to stay, whether it's for a month or for 2 years or 
permanently, that anyone would imply that that is not an 
incentive.
    Because if I had children, if I had been born in Honduras, 
in Guatemala, or El Salvador, and I believed that there was a 
chance for me to remain in the United States, I would do 
anything in my power to bring those children here.
    What do you think, Mr. Judd and Mr. Crane, the one single 
thing that we could do right now to stop what I do believe is a 
humanitarian crisis, but it's a humanitarian crisis that has 
been created by this President and by the lack of enforcement, 
what is the one thing that we could do today to change it? Mr. 
Judd and Mr. Crane.
    Mr. Judd. I'm going to have to answer I want to stop the 
smugglers. I want these individuals to be safe. I've seen too 
many dead bodies in the desert. I don't want to see anymore 
dead bodies. I want them to present themselves at ports of 
entry. I want to stop the smugglers. That's what I want to 
stop.
    Mr. Labrador. Thank you.
    Mr. Crane.
    Mr. Crane. If it's just one answer, I would say that we 
have to send a different message to the world, and that starts 
with enforcing the laws that we have on the books and taking a 
second look at things like DACA.
    Mr. Labrador. If we start enforcing the law today, I will 
submit to you that we can save children. You won't see those 
dead bodies, you won't see these girls that are getting raped, 
and you won't see these children that are getting abused by 
these criminal gangs. I think it's time that we took this very 
seriously and we stopped playing games on immigration.
    Thank you very much, all of you, for being here.
    Ms. Jackson Lee. Mr. Chairman, I have a unanimous consent--
--
    Mr. Goodlatte. Chair thanks the gentleman.
    The gentlewoman will state her unanimous consent request.
    Ms. Jackson Lee. Mr. Chairman, I would like to add into the 
record an article entitled ``Why 90,000 Children Flooding Our 
Border Is Not an Immigration Story,'' and this is out of the 
NationalJournal.com. I ask unanimous consent.
    Mr. Goodlatte. Without objection, the document will be made 
a part of the voluminous record of this hearing.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Goodlatte. And the Chair recognizes the gentleman from 
Illinois, Mr. Gutierrez, for 5 minutes.
    Mr. Gutierrez. Thank you very much, Mr. Chairman.
    First of all, one simply needs to Google things and you 
find a different reality than that being expressed here. 
Poorest country: Central America, Nicaragua. But you bring us 
your own charts and show us there is absolutely no increase in 
the numbers of Nicaraguan unaccompanied children to this 
country. None. There is no increase from Mexico.
    It's increased from three specific countries. And you go 
back. You want to talk about the Guatemalan police. Google it 1 
second. The former head of the Guatemalan police was convicted 
on June 6 of this month for murdering people. It is pervasive, 
the violence. They are part and parcel of the criminal 
enterprise in many instances that plagues Guatemala. And you 
want us to believe them, the very people that help facilitate 
these processes? Please.
    The other thing is, let's be clear, because I would like a 
little more honesty here, Mr. Chairman. We have unions that 
come here that when their directors give prosecutorial 
discretion, they get together with their union, right, and then 
condemn their supervisors for initiating those prosecutorial 
discretion memorandums. That is the truth and that is the 
reality. So you already come.
    You don't like DACA, you don't like anything that has to do 
with compassion. You don't like anything that has to do with 
prosecutorial discretion. But it is the law. And I'm happy that 
the President of the United States is initiating prosecutorial 
discretion because this is a Nation of laws, and it's also a 
Nation of compassion. It's also a Nation that understands that 
there is truth and justice in our law.
    I mean, all I've heard here today is, let's lock them up 
and throw them back. I haven't heard a solution here. Please, 
tell me what the solution that has been offered here that would 
stop the children from coming here, other than to say that if 
we locked them up and sent them back, which is not the law of 
the land, it is simply not the law of the United States.
    You want to change the law and you want to send them back? 
Then prepare legislation that says exactly that, get it passed 
by the Congress of the United States and signed by the 
President of the United States. But that's not the law.
    What we hear is now they're bringing diseases. How many 
times do we have to hear about poor children fleeing drug 
cartels, crime, violence, murder, rape, and they finally arrive 
in this country, and what do we do to those children? Do we 
continue what was said in Virginia just a couple of weeks ago 
when Mr. Cantor's opponent says, I'm going to Congress to 
continue the Judeo-Christian tradition that this country was 
founded on. That's the Judeo-Christian tradition, to take 
children fleeing murderers, drug traffickers, human 
traffickers, and then demonize them and criminalize them? That 
is.
    And then one of my colleagues on the Republican side says, 
oh, they're reuniting them with their parents. I'm aghast. 
Really? What a sin. What a sin. The government of the United 
States is spending money to reunite children with their 
parents.
    I say we have sensible, comprehensive immigration reform, 
which I am ready to work and have been ready to work with the 
other side of the aisle. You know why they're coming? I'll tell 
you why. Because the drug traffickers and the drug cartels, 
they're filming this hearing. And what they have heard time and 
time again from the Republicans is, what? You get a free pass. 
How many times haven't we heard them say that, you get a free 
pass? You don't think the drug traffickers and the drug cartels 
print that stuff up and then go? Let's tell them the truth of 
what our laws are.
    The fact is, they're being placed in removal proceedings. 
We know that. We know that the vast majority will not receive 
anything from the government of the United States and they will 
be ordered deported from the United States after going through 
these long trials and tribulations and murderous road to get 
here.
    I've got to tell you something. I am astonished and ashamed 
that this Committee is going to have a trip to visit the 
centers in Texas and has this hearing and prejudges the very 
expedition that we're taking out next week.
    Look, I want to continue the Judeo-Christian tradition of 
this country, too, and that is one that is welcoming of people 
that are refugees, that come here seeking peace and humanity. I 
don't know about the rest of my colleagues, but I think that 
should be our goal each and every instance. And I want to thank 
Mr. Deutch for reminding us of what we're doing given the 
terrible crisis of Syria and what we've asked other people to 
do. That's all we're asking. But it just seems to be that if 
they come from our own specific hemisphere, it's bad.
    Let me tell you something. We spend trillions of dollars in 
countries where people don't like us. Let's spend some money in 
countries where people love this Nation, and I think we would 
be a lot better off.
    Mr. Goodlatte. Time of the gentleman has expired.
    Chair recognizes the gentleman from Florida, Mr. Garcia, 
for 5 minutes.
    Mr. Garcia. Thank you, Mr. Chairman.
    I'd like to thank the witnesses for joining us today.
    I think we can all agree that we have a crisis on our 
hands. It's profoundly disappointing, however, that some of my 
colleagues are using this crisis as an excuse for inaction. 
Inaction is what got us here in the first place. We have now 
waited a full year since the bipartisan Senate bill was passed, 
a full year. If we had passed immigration reform, we would have 
taken care of the people who are already here and directed 
resources to criminals, traffickers, and people who wish to do 
this Nation harm.
    We have been able to provide reintegration assistance and 
legal representation to these children, and we would have a 
comprehensive strategy at the border, so we could stop throwing 
money at the problem and stop militarizing border communities.
    Just yesterday, Speaker Boehner wrote the President asking 
him to send troops to the border, to send National Guard troops 
to the border. To do what? These are children. They need help, 
not a gun in their face. Others are using this as excuse to end 
DACA and deport all the young people who have benefitted from 
that program. DACA is a program that Secretary Johnson 
testified before this Committee as a success very recently.
    These young people have become assets in our community. 
They want nothing more than to go to school and contribute to 
our country, to their country. In fact, I have a dreamer 
interning in my office this summer.
    No matter who you think is at fault, the fact of the matter 
is that there are hundreds of kids arriving at our border each 
day, hungry, thirsty, often traumatized by the journey. They 
aren't here because they're trying to game the immigration 
system. They are here out of desperation. You don't hand your 
10-year-old daughter to a coyote and let her travel thousands 
of miles through a desert on the backs of trucks through a 
foreign country because you're hoping she will be your 
immigration in. They feel they have no other choice; in fact, 
in many cases, they have no other choice.
    These kids are coming from places where children are 
recruited by gangs, where they are used as pawns to coerce 
their families. They're here because of a foreign policy that 
has ignored the problems in our own backyard and because the 
immigration system is too broken to deal with reality. We need 
to fix our immigration system and invest in this part of the 
world to get to the root of the problem in this crisis. Using 
these kids to score political points is unproductive and simply 
beneath us. Stop finger pointing and start governing, is what 
we should be doing.
    Now, I've just been astonished by some of the questions 
here, but I want to ask any of you here, have you heard any, 
with the exception of some of the Members across the aisle, 
have any of you heard U.S. officials saying to people come to 
the United States so you can stay?
    Mr. Homan. I have not heard any U.S. officials say that, 
no.
    Mr. Garcia. Mr. Crane?
    Mr. Crane. No, sir, I have not.
    Mr. Garcia. Good.
    I wanted to ask the bishop, because somehow you got 
involved in the conspiracy, somehow the Catholic Church is now 
in collusion with the coyotes trying to come here, could you 
state for the record what the Catholic Church thinks about 
people breaking the law and coming to the United States as they 
want to portray it?
    Rev. Seitz. Well, first of all, we do not recommend that 
youth, children, anyone leave their home country and make that 
journey. We try to discourage them from coming. However, I 
think we also recognize that there are people, as you said, 
that feel they have no other option. Like the woman said that I 
quoted in my testimony, she said she would rather see them die 
on the journey, take a chance of dying on the journey, than to 
die on her doorstep. And that is the option that I believe many 
of these people feel.
    Mr. Garcia. Bishop, one final question. I sometimes look at 
bumper stickers and I always love the little monogram, you 
know, WWJD, what would Jesus do? Could you tell me who Jesus 
would deport, just so I know?
    Rev. Seitz. Well, I think we have plenty of indications in 
the Gospel that Jesus identified in a special way with people 
who are on the margins, with people who have no voice. He told 
the story of the Good Samaritan, and he said that the neighbor 
was the one who showed compassion. I don't think we ever get a 
pass on compassion, especially to the one who is standing 
before us.
    Mr. Garcia. Thank you very much. I yield back the balance 
of my time.
    Mr. Goodlatte. Chair thanks the gentleman.
    This concludes today's hearing. Thanks to all of our 
witnesses for attending. Without objection, all Members will 
have----
    Ms. Jackson Lee. Mr. Chairman, unanimous consent to put in 
the record a----
    Mr. Goodlatte. I'm going to cover that right now.
    Without objection, all Members will have 5 legislative days 
to submit additional written questions for the witnesses or 
additional materials for the record.
    Mr. Goodlatte. And the hearing is adjourned.
    Ms. Jackson Lee. Thank you.
    [Whereupon, at 6:15 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

Questions for the Record submitted to Thomas Homan, Executive Associate 
  Director, Enforcement and Removal Operations, U.S. Immigration and 
                          Customs Enforcement*
---------------------------------------------------------------------------
    *The Committee had not received a response to its questions at the 
time this hearing record was finalized and submitted for printing on 
August 25, 2014.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

 Response to Questions for the Record from Ronald D. Vitiello, Deputy 
Chief of Border Patrol, Customs and Border Protection, U.S. Department 
                          of Homeland Security

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>

   Response to Questions for the Record from Chris Crane, President, 
  National Immigration and Customs Enforcement Council 118, American 
                   Federation of Government Employees

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
